<html>
<title> - UNITED STATES DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                      UNITED STATES DEPARTMENT OF 
                           HOMELAND SECURITY

=======================================================================


                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 29, 2014

                               __________

                           Serial No. 113-78

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
80-040                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
SPENCER BACHUS, Alabama              SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina       DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
JASON T. SMITH, Missouri
[Vacant]

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel


                            C O N T E N T S

                              ----------                              

                              MAY 29, 2014

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3

                                WITNESS

The Honorable Jeh C. Johnson, Secretary, United States Department 
  of Homeland Security
  Oral Testimony.................................................     6
  Prepared Statement.............................................     8

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Member, Committee 
  on the Judiciary...............................................    37
Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................    48

                                APPENDIX
               Material Submitted for the Hearing Record

Questions for the Record submitted to the Honorable Jeh C. 
  Johnson, Secretary, United States Department of Homeland 
  Security.......................................................    92


             UNITED STATES DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                         THURSDAY, MAY 29, 2014

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 10:33 a.m., in room 
2141, Rayburn House Office Building, the Honorable Bob 
Goodlatte (Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Coble, Smith of Texas, 
Chabot, Bachus, Forbes, King, Franks, Gohmert, Jordan, Poe, 
Chaffetz, Marino, Gowdy, Labrador, Farenthold, Holding, 
Collins, DeSantis, Smith of Missouri, Conyers, Nadler, Scott, 
Lofgren, Jackson Lee, Johnson, Pierluisi, Chu, Deutch, 
Gutierrez, DelBene, Garcia, Jeffries, and Cicilline.
    Staff Present: (Majority) Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Deputy Chief of Staff & Chief 
Counsel; Allison Halataei, Parliamentarian & General Counsel; 
Kelsey Deterding, Clerk; George Fishman, Counsel; Andrea 
Loving, Counsel; Dimple Shah, Counsel; (Minority) Perry 
Apelbaum, Staff Director & Chief Counsel, Danielle Brown, 
Parliamentarian; Tom Jawetz, Counsel; and David Shahoulian, 
Counsel.
    Mr. Goodlatte. The Judiciary Committee will come to order. 
Without objection, the Chair is authorized to declare recesses 
of the Committee at any time.
    We welcome everyone to this morning's oversight hearing on 
the U.S. Department of Homeland Security. And I will begin by 
recognizing myself for an opening statement.
    I want to extend our welcome to Secretary Johnson for 
testifying before us today for the first time.
    The Obama Administration has taken unprecedented and most 
likely unconstitutional steps in order to shut down the 
enforcement of our immigration laws for millions of unlawful 
and criminal aliens not considered high enough ``priorities.''
    The DHS does this under the guise of prosecutorial 
discretion. The beneficiaries include many thousands of aliens 
who have been arrested by State and local law enforcement or 
are convicted criminals who have been put in removal 
proceedings and who DHS simply has let back onto our streets.
    In addition to simply not pursuing removable aliens, the 
DHS has been granting hundreds of thousands of them 
administrative legalization and work authorization.
    The Department of Homeland Security does this under many 
guises, invoking doctrines with esoteric names, such as 
Deferred Action and Parole in Place.
    The net effect of these policies has been described by 
former ICE Acting Director John Sandweg: ``If you are a run-of-
the-mill immigrant here illegally, your odds of getting 
deported are close to zero.''
    Over the past few years, ICE has been claiming to have 
removed record numbers of unlawful or criminal aliens from the 
United States.
    Of course, to the extent these numbers are valid, they 
would have simply reflected the vast increase in enforcement 
resources provided by Congress in recent years.
    ICE's budget has increased from approximately 3 billion in 
2005 to 5.8 billion in 2013. However, ICE's removal numbers 
simply rely on smoke and mirrors.
    In fact, almost two-thirds of the removals claimed by ICE 
in 2013 involved aliens apprehended by the Border Patrol along 
the border or intercepted by inspectors at ports of entry.
    When we look at the number of true ICE removals of aliens 
residing in the United States, we see that they have fallen 43 
percent from 2008 to 2013. Even President Obama has admitted 
that ICE's record removals are deceptive.
    Removals are down so dramatically because the Obama 
Administration is twisting the concept of prosecutorial 
discretion beyond all constitutional recognition, all in an 
unprecedented effort to create immigration enforcement-free 
zones.
    Most disturbingly, despite the Administration's pledge to 
prioritize the removal of serious criminal aliens, DHS is 
releasing thousands of such aliens onto our streets.
    The Judiciary Committee discovered through subpoena that, 
between October 2008 and July 2011, the Department of Homeland 
Security declined to seek removal for almost 160,000 aliens who 
had been arrested by State and local law enforcement officers.
    After these aliens were then released into our communities, 
about 17 percent were rearrested on criminal charges within 
only 3 years' time.
    The crimes charged include nearly 8,500 DUIs, over 6,000 
drug violations, and more than 4,000 major criminal offenses, 
including murder, assault, battery, rape, and kidnapping.
    In one of the most horrific cases, an unlawful alien DHS 
decided not to pursue after being arrested for attempted grand 
theft was later arrested on suspicion of killing a man, chasing 
those who had robbed his 68-year-old grandfather.
    These crimes never would have been committed had DHS 
pursued these aliens for removal. Unfortunately, none of this 
has shamed the DHS into changing its irresponsible practices.
    The Center for Immigration Studies recently obtained ICE 
documents revealing that, in 2013, ICE declined to pursue 
removal thousands of times against convicted criminals it had 
encountered.
    And ICE also discovered that, in 2013, ICE released from 
detention over 36,000 convicted criminal aliens that it had 
actually put in removal proceedings.
    I have asked DHS for identifying information on these 
released criminal aliens so that we may determine what new 
crimes they have gone on to commit.
    I hope and expect that Secretary Johnson will fully 
cooperate in providing this vital information to the Committee 
and the American people.
    The end result of DHS's practices is that the American 
people have lost all confidence in this Administration's 
willingness to enforce our current immigration laws or use any 
enhanced enforcement tools that Congress may give it.
    This, in turn, has made it exceedingly difficult for 
Congress to fix our broken immigration system. Unfortunately, 
we can only expect DHS's efforts to evade its immigration law 
enforcement responsibilities to escalate.
    President Obama has asked Secretary Johnson to perform an 
inventory of the Department's current enforcement practices to 
see how it can conduct them more humanely.
    These are simply code words for further ratcheting down 
enforcement of our immigration laws. We do not know yet how far 
Secretary Johnson will go.
    Persons within and without the Administration have 
pressured him to no longer seek to remove previously deported 
aliens who have illegally reentered the United States or aliens 
who have absconded from their removal proceedings and become 
fugitives.
    Some have demanded that DHS grant administrative 
legalization to parents who endanger their children's lives by 
bringing them here illegally in perilous journeys.
    Others have gone so far as to demand administrative 
legalization for the entire universe of millions of unlawful 
aliens who would receive a special pathway to citizenship under 
the Senate's massive comprehensive immigration bill.
    Secretary Johnson is not responsible for the dangerous and 
irresponsible decisions made by DHS before he was sworn in last 
December. We can only hope that he will bring back a level of 
adult responsibility to the enforcement of our immigration 
laws.
    But his recent comments that he is considering scaling back 
one of the DHS's most successful programs to identify and 
remove dangerous aliens, Secure Communities, cause me grave 
concern for the future of immigration enforcement. I look 
forward to the testimony of Secretary Johnson today.
    It is now my pleasure to recognize the Ranking Member of 
the Committee, the gentleman from Michigan, Mr. Conyers, for 
his opening statement.
    Mr. Conyers. Thank you, Chairman Goodlatte, and Members of 
the Committee.
    We all join in welcoming you, Secretary Johnson, to the 
House Judiciary Committee as Secretary, and long before you had 
a distinguished career both in public service and in the 
private sector.
    But the thing that I like most about it is that you are a 
Morehouse College graduate, and that has a special resonance 
for many in the Congress and in our communities.
    Before your appointment to the Department of Homeland 
Security, Secretary Johnson served as general counsel of the 
Department of Defense where he oversaw many critical reforms, 
including ending the discriminatory policy ``Don't Ask, Don't 
Tell.''
    Given this background, I can think of no person better 
equipped to lead the Department of Homeland Security and carry 
out the President's directive to review our immigration 
policies to ensure that we are carrying them out in the most 
humane way possible.
    Yesterday the President of the United States announced a 
delay to this review to provide my House colleagues the room 
they need to pass legislative reforms, whether through the 
Senate bill or several House bills, and I am committed to work 
with them to achieve needed reforms of our system.
    Most of us agree that the system is broken and that only 
Congress can permanently fix it. So the Secretary's testimony 
and opinions here today will be very important to us all.
    We should get started on that process right away before the 
window for reform closes. Every day that passes without a vote 
in the House is a day that thousands of families are torn 
apart, that businesses are deprived of critical skills and that 
brilliant entrepreneurs and investors are forced to take their 
resources and talents elsewhere. Every day that passes is also 
a day in which we fail to jump-start our own economy.
    The Congressional Budget Office has concluded that the 
House and Senate immigration reform bills, S. 744 and H.R. 15, 
would decrease the budget deficit by $900 billion over a 20-
year period. So I stand committed to work with my colleagues 
for legislative reform.
    But if my colleagues won't act to fix a system that most 
agree needs it badly, then I fully support the President doing 
what he can under the current law to improve that system.
    I agree with the President's call to make our immigration 
system reflect American values. People who commit serious 
crimes and pose a danger to the public should be our highest 
priorities for removal.
    Those with strong ties to this country, the spouses of 
citizens and permanent residents, the parents of citizens and 
dreamers, and those who have worked productively in the United 
States for many years should not be.
    We know the Administration has the authority to set 
enforcement priorities, and it also has the authority to set 
detailed guidelines to ensure that those priorities are carried 
out by deportation officers, trial attorneys, and other 
enforcement personnel.
    This authority has been specifically recognized by my 
colleagues on both sides of the aisle of this Committee, 
including a letter sent by current Members to the Clinton 
Administration urging it to issue guidelines on prosecutorial 
discretion.
    So far, we have heard hardly more than excuses for not 
doing immigration reform: The Senate bill has too many pages; 
the House wants to take its time and do reform step by step; we 
must secure the border before we can discuss anything else.
    Well, I think the newest excuse for not working to reform 
the system is that the Republicans cannot trust the President 
to enforce the law.
    Put aside the fact that this Administration has set records 
with respect to enforcement spending, detentions, prosecutions, 
and removals, but ``can't trust the President'' excuse strikes 
me as an extremely odd complaint from a legislative body.
    What is the point of passing any bill if we have that kind 
of an impasse? How many other issues of national importance do 
my colleagues think Congress should ignore until they have 
someone else that they might prefer in the White House?
    It is time to cut out the excuses and get to work doing the 
people's business. Americans agree the system is broke, and 
they strongly support comprehensive immigration reform. And so 
it is our duty to stop passing the buck and get to work.
    Mr. Chairman, I thank you for the time, and I yield back.
    Mr. Goodlatte. Thank you, Mr. Conyers.
    And, without objection, all other Members' opening 
statements will be made a part of the record.
    We thank our only witness, the Secretary, for joining us 
today.
    Secretary Johnson, if you would please rise, I will begin 
by swearing you in.
    [Witness sworn.]
    Secretary Johnson. I do.
    Mr. Goodlatte. Thank you.
    Let the record reflect that the Secretary responded in the 
affirmative. And it is now my pleasure to introduce him.
    Jeh Charles Johnson was sworn in on December 23, 2013, as 
the fourth Secretary of Homeland Security. Prior to joining 
DHS, Secretary Johnson served as general counsel for the 
Department of Defense where he was part of the senior 
management team and led more than 10,000 military and civilian 
lawyers across the Department.
    Secretary Johnson was general counsel of the Department of 
the Air Force from 1998 to 2001, and he served as an Assistant 
U.S. Attorney for the Southern District of New York from 1989 
to 1991.
    In private law practice, Secretary Johnson was a partner 
with the New York City-based law firm Paul, Weiss, Rifkind, 
Wharton & Garrison.
    Secretary Johnson graduated from Morehouse College in 1979 
and received his law degree from Columbia Law School in 1982.
    The Secretary reminded me this morning that he has a 
connection to this Committee as well that many Members will 
find of interest. In the early 1990's, he worked briefly for 
then-House Republican Ranking Member of the Judiciary 
Committee, Ham Fish of New York.
    Secretary Johnson. It was actually the 1970's, Congressman.
    Mr. Goodlatte. Oh. 1970's. Well, that is way before my 
time.
    But I thank you for that information as well as the 
information that many Members of the Committee may find of 
interest, that there are 10,000 military and civilian lawyers 
in the Department of Defense. Whether that is a good thing or a 
bad thing we will leave for future discussion.
    In any event, we look forward to your testimony. Your 
written statement will be entered into the record in its 
entirety.
    And we ask that you summarize your testimony in 5 minutes. 
To help you stay within that time, there is a timing light on 
your table and, when the light switches from green to yellow, 
you will have 1 minute to conclude your testimony. And we 
welcome you to the Committee.

 TESTIMONY OF THE HONORABLE JEH C. JOHNSON, SECRETARY, UNITED 
             STATES DEPARTMENT OF HOMELAND SECURITY

    Secretary Johnson. Thank you, Chairman.
    You do have my prepared written statement.
    Let me just summarize a couple of things within my 5 
minutes. First, thank you for inviting me. I look forward to 
our discussion this morning and this afternoon.
    I begin by pointing out that, as the leader of the 
Department of Homeland Security, I recognize that our most 
valuable asset is our men and women, and I have pledged 
numerous times to support them in good times and in bad times.
    My first full week on the job I went to South Texas to 
attend the funeral of CBP Officer Darrell Windhaus, who died in 
the line of duty in South Texas.
    Yesterday we lost another one, Border Patrol Agent 
Alexander Giannini, age 24, who died in the line of duty in 
what appeared to be a one-car accident in Arizona. And I am 
sure that the Members of this Committee join me in mourning his 
loss and expressing condolences to his family.
    Thank you for the opportunity to be here. As I mentioned, I 
know a number of Members of this Committee from other contexts, 
from the House Armed Services Committee, from private life, and 
it is good to see you.
    Let me begin by saying that, in my judgment, 
counterterrorism must remain and should continue to remain the 
cornerstone of the mission of the Department of Homeland 
Security.
    As the President mentioned yesterday at West Point, core Al 
Qaeda has been largely decimated, but in the last several 
years, we have seen the rise of Al Qaeda affiliates, Al Qaeda 
adherents, and other Al Qaeda-like organizations around the 
world.
    We have to be vigilant in regard to those organizations. We 
are concerned, I am concerned, about the so-called lone wolf 
who would attack us in this country, domestic-based independent 
actors who commit or attempt to commit terrorist acts, as 
evidenced last year by the Boston Marathon bombing.
    We in the Department of Homeland Security need to be 
vigilant against all these potential threats, and I believe we 
are.
    I believe it is also particularly important, given the 
decentralized and diffuse nature of the terrorist threat that 
the homeland faces, that we spend a lot of time and effort 
working closely with State and local law enforcement, first 
responders through training, through working together and JTTFs 
and so forth, preparedness grants.
    We have an initiative that I am personally involved in and 
particularly interested in, countering violent extremism at 
home through engagements in local communities.
    I believe it is important, where possible, that we push out 
our homeland security beyond our borders where we can do so 
consistent with agreements with other governments.
    I believe it is important that we establish in as many 
places as feasible preclearance capabilities in overseas 
airports that are last points of departure.
    In terms of border security, we have devoted an 
unprecedented amount of resources. Thanks to the support of 
this Congress to that effort, over the last number of years 
apprehensions have gone down, but we have seen a rise recently 
in apprehensions, particularly in the Rio Grande Valley sector 
in South Texas.
    We are seeing a rise that we have to address and we must 
address and I am developing a plan to address, in particular, 
with regard to illegal migration by those other than Mexicans 
coming from Central America and unaccompanied children.
    The problem of unaccompanied children is one that I am very 
familiar with, having personally visited McAllen Station, 
Texas, several weekends ago to see the problem myself.
    I have directed a number of actions in response to that 
situation which I would be happy to discuss further with 
Members of the Committee. We are developing a campaign plan for 
the southwest border, which represents a whole of DHS approach.
    You are correct, Chairman, that I am engaged in a review of 
reforms to our enforcement priorities. And the President has 
asked me to wait, for reasons that I agree, before announcing 
those reforms to give the House of Representatives the 
opportunity this summer to act on comprehensive immigration 
reform.
    It is something that I very much support and believe in for 
a number of reasons, including added border security, mandatory 
E-Verify, enhanced criminal penalties for those who would hire 
undocumented, as well as the earned path to citizenship. And 
both the President and I urge the House of Representatives to 
act.
    We are doing a number of other things, which I would be 
happy to discuss in more detail, in the Department to enhance 
morale, to enhance our process for budget deliberations and our 
acquisition process.
    And we are making great progress in filling the numerous 
senior-level vacancies. Including myself, since December, the 
Senate has confirmed seven presidential appointments for senior 
leadership positions in DHS.
    I believe it is critical to the morale and good work of the 
Agency that we have a new energy, new leadership in the 
department, and we are making good progress there.
    Thank you, Chairman. And I look forward to your questions.
    [The prepared statement of Secretary Johnson follows:]


    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Goodlatte. Thank you, Secretary Johnson.
    We will now proceed under the 5-minute rule with questions. 
And I will begin by recognizing myself.
    Secretary Johnson, I appreciate the President's recognition 
of the importance of doing immigration reform. I and, I think, 
most Members of Congress believe we need to do immigration 
reform as well.
    But it needs to be recognized by the President and by you 
and others in the Administration that, when the President says 
that he is going to set a time limit and then consider taking 
actions himself, which many of us read to be the President 
again repeating, ``I have a pen and a cell phone and, if you 
don't act, I will,'' that that makes doing immigration reform 
harder, not easier, because those who may like what the 
President decides to do administratively have less reason to 
negotiate the hard decisions to be made about how to enforce 
our immigration laws in the future.
    And those who do not agree with the President's position on 
immigration reform say, ``Why should we negotiate if we can't 
trust the President to enforce the laws as they exist.''
    So I just expressed to you my ongoing concern that the 
President is being helpful to the process when he works with 
the Congress and suggests that he wants to accomplish 
immigration reform, but he hurts the efforts in the Congress 
when he says, ``If you don't do it'' and the suggestion is 
further, ``If you don't do it my way, I will act 
unilaterally,'' when many of us believe the United States 
Constitution does not give him the authority to do that.
    But let me turn my questions to another subject, and that 
is there are now 858,779 non-detained aliens with final orders 
of removal who have not been removed. The vast majority of 
these aliens have simply absconded and become fugitives in the 
U.S.
    It is, to me, crystal clear--is it to you?--that, if we do 
not detain aliens in removal proceedings, many will simply 
become fugitives and not be required to leave the country?
    Secretary Johnson. Chairman, you are correct that there are 
a large number of undocumented in the country who are fugitives 
who have absconded after final orders of removal. I have looked 
at the same numbers.
    One of the things that----
    Mr. Goodlatte. Let me get into the details here.
    It has recently been revealed that, in 2013, DHS released 
from detention over 36,000 criminal aliens in removal 
proceedings or after they had been ordered removed, aliens with 
convictions ranging from homicide to sexual assault, to 
kidnapping, to aggravated assault, to drunk driving.
    DHS stated in response that many of these aliens were 
released as a discretionary matter after career law enforcement 
officers made a judgment regarding the priority of holding the 
individual, given ICE's resources, and prioritizing for 
national security reasons.
    Isn't it true that ICE attorneys decide whether to offer 
bond and set the amount of the bond? So isn't it also true that 
the DHS could have detained most of these criminal aliens, but 
simply chose not to?
    Secretary Johnson. Chairman, I myself would like a deeper 
understanding of this issue. I have your letter on the subject. 
We responded yesterday. I don't know whether you received the 
response yet, sir.
    But my understanding so far is that a number of those 
released in fiscal year 2013 were as the result of an order 
from an immigration judge or by an immigration officer acting 
pursuant to, consistent with, Supreme Court precedent and other 
law.
    Certainly there is an amount of judgment that goes into 
that. So if someone is released, they are released pursuant to 
conditions that are intended to guarantee their return.
    But I look at the same list you have seen, and I have seen 
some pretty serious criminal convictions on that list, 
including homicide and other things.
    And so I want a deeper understanding of this issue myself 
to make sure that we are doing everything we should be doing to 
ensure public safety in this process.
    Mr. Goodlatte. And you note the homicides. For example, it 
was stated by the Department that mandatory releases because of 
court decisions account for 72 percent of those homicides. And, 
obviously, the Congress needs to address that.
    Some of those mandatory releases were because of being held 
for a length of time the courts felt were inappropriate, and we 
need to make sure that that is addressed so that they are 
removed from the United States after they have served their 
sentences for homicide.
    But that still leaves 28 percent of the murderers, a 
substantial number of people, who the DHS simply voluntarily 
released. So I hope that you will look into what is happening 
there and try to help us understand how this can be fixed.
    The second issue I want to address is the issue of Secure 
Communities. It has been one of the most efficient mechanisms 
for removing dangerous aliens from the United States.
    Through Secure Communities, the fingerprints of everyone 
arrested and booked for a crime by local law enforcement are 
checked against FBI criminal history records and also checked 
against DHS immigration records. If fingerprints match DHS 
records, ICE can seek immigration holds against the aliens and 
launch removal proceedings.
    Former ICE Director John Morton has stated that, just to 
give you some sense of it, in very large jurisdictions in the 
United States, the rate of recidivism for criminal offenders 
can be as high as 50 percent or more.
    When ICE can come in and remove offenders from a given 
community so that they can't reoffend, well, guess what. We 
take that recidivism rate to zero.
    So, for example, if you have 100 criminal offenders, we are 
able to root them out. That is 50 crimes that will not happen 
over the next 3 years as a result of our enforcement efforts.
    Do you agree with former Director Morton as to the power of 
Secure Communities?
    Secretary Johnson. Well, I don't believe we should scrap 
Secure Communities. I believe, given the reality of where we 
are with this program in this country, that we need a fresh 
start.
    We have mayors and governors signing executive orders and 
passing laws that limit our ability to effectively carry out 
this program, and I think the goal of the program is a very 
worthy one that needs to continue.
    So as part of the overall effort I am embarked in right 
now, I want a fresh start to this program and I want a fresh 
conversation with mayors and governors around the country to 
make this program work more effectively. We have got 
limitations being erected on our ability to conduct this 
program.
    And I think it is an important program, but it is gotten 
off to bad messaging, misunderstanding in State and local 
communities about exactly what it is. Some people think it is a 
surveillance program. But you are right. It is sharing 
fingerprints between one Federal agency and another.
    And I think, with clearer guidance and clearer 
understandings by mayors and governors, commissioners and 
sheriffs, of what our priorities are, we can go a long way to 
improving the Administration of this program, sir.
    Mr. Goodlatte. Well, not administrating the program is also 
a missed opportunity to address the problem with the release of 
criminal aliens back into our society.
    Because when State and local law enforcement go to the 
trouble of identifying people and sharing that information and 
giving DHS more information about who should be removed and 
then they don't see them removed, as is the case in 85 percent 
of the aliens identified through Secure Communities in 2013, 
not being deported, I think that builds a lot of mistrust in 
the system and will cause the system to fail of its own.
    So we encourage you to improve that system and to utilize 
it to a greater extent.
    My time is expired.
    And I am now pleased to recognize the gentleman from 
Michigan, Mr. Conyers, for 5 minutes.
    Mr. Conyers. Thank you, Chairman Goodlatte.
    We appreciate your testimony here today, Secretary Johnson.
    My concern is about the large numbers of people who are 
being deported each year who have committed very little 
violation except those related to their undocumented status.
    They are people who have lived here for years, some for 
decades, many of whom were brought as children. They have jobs 
and families, including U.S. citizen sponsors and children or 
other close family who have legal status.
    Their only offense arises from not being here lawfully. 
They can't get licenses. They can't drive. They can't work. So 
they use frequently a fake Social Security card and so on.
    Let me ask you, as you complete your review of enforcement 
practices, will you take a close hard look at who is being 
targeted to make sure these people who have only immigration 
status violations are not made priorities?
    Secretary Johnson. Yes. The concept of prosecutorial 
discretion is one that has been around for a long time in the 
criminal justice context and this context.
    And I think, with the resources we have from Congress, we 
have to continually re-evaluate how best to prioritize who we 
enforce the laws against. And so that would be part of my 
objective.
    Mr. Conyers. Thank you.
    Now, what factors do you think that the Customs and Border 
Protection and ICE should consider before referring some of 
these cases for prosecution?
    I think that is an important consideration that comes from 
your experience and your analysis in the position that you hold 
now.
    Secretary Johnson. I think that the priorities, in general, 
should be threats to national security, public safety, and 
border security. And so I want our men and women to focus on 
those priorities at the various points in the system.
    I do believe that, at the border, at the border, the 
priorities have to be a little different for the sake of border 
security, border integrity.
    I don't expect our Border Patrol agents, for example, to 
try to prioritize as they see people literally crossing the Rio 
Grande and stepping onto the shore.
    I think we have to maintain border security and we have to 
avoid practices and policies that operate as magnets for 
further illegal migration.
    But I do believe that our people should be encouraged to 
focus on, first, border security, public safety, national 
security.
    Mr. Conyers. Thank you.
    I understand that much of the spike in immigration 
prosecution is related to Customs and Border Protection's 
Consequence Delivery System, which promises to assign some form 
of law enforcement consequence to nearly every person 
apprehended at the border.
    These prosecutions come at significant expense. And, by 
contrast, your Department could effectuate a voluntary return 
or a form of removal for many of these people at little or no 
cost.
    In deciding whether this is a good use of Federal 
resources, do you think it is important for CBP data and 
methodology on recidivism to be made public?
    Making the data and methodology public and ensuring that it 
receives close scrutiny might help to either increase 
confidence in our current approach or lead to other 
improvements. What is your view?
    Secretary Johnson. Let me answer that two ways.
    First of all, I think that we should be careful to 
disincentivize illegal migration, as I suggested a moment ago.
    I also support greater transparency in our policies, 
whether it is use of force at the border--and we have made some 
good progress there in making those policies more transparent--
or other aspects of government policy.
    And I have been an advocate for that in this Department and 
when it comes to our counterterrorism activities by the 
Department of Defense when I was general counsel.
    Mr. Conyers. My time is expired. I thank you for your 
responses.
    Secretary Johnson. Thank you.
    Mr. Goodlatte. Chair thanks the gentleman and recognizes 
the gentleman from Alabama, Mr. Bachus, for 5 minutes.
    Mr. Bachus. Thank you.
    Secretary Johnson, first I want to thank the Department of 
Homeland Security for their support for the National Computer 
Forensic Institute. It has solved many crimes.
    It was initially designed for financial crimes, but they 
have actually solved hundreds of pedophile cases and child 
predator cases. And it trained law enforcement agents and 
judges all over the Nation. So I thank you for that.
    The Department of Homeland Security is in a partnership 
with the Drug Enforcement Agency and ICE and local agencies to 
combat what I would call an epidemic of synthetic drug abuse. 
In May, you had Project Synergy, which actually seized millions 
of dollars, I think over 200 arrests.
    There is two things that really alarm me about this. One is 
the targeted age. Most of the users of these synthetic drugs 
are between the ages of 14 and 25. At least one survey recently 
said 1 in 9 high school students is using synthetic drugs.
    And then the results, which range--and I have a photograph 
which I am going to share privately with you. But it is a 
picture of two young people who actually died of an overdose 
from synthetic drugs, and the drugs were actually found there 
on the scene. And we have had those cases all over the United 
States.
    The second is that, not only that, it is causing long-term 
psychotic depression or psychological damage to our young 
people.
    But the most alarming thing--and I want you to maybe 
comment on this first--is it is my understanding from that 
operation that the great majority of these funds being made--
and we are talking about millions and millions of dollars--were 
being sent to terrorist organizations in Yemen and Lebanon.
    So I would ask you--first of all, we are talking about 
hundreds of millions of dollars from the sale of synthetic 
drugs here in the United States being used to fund terrorism, 
our enemies.
    Do you believe that synthetic drug proceeds are funding 
terrorist and extreme organizations? And is this a national 
security issue? That would be my first question.
    Secretary Johnson. Yes. Sir, I agree with you.
    I recently attended a briefing on transnational criminal 
organizations that are engaged in--billions in illegal narcotic 
activities, and we are beginning to see a connection between 
these organizations and terrorist organizations where one is 
supporting the other.
    So I agree very much with that observation, and I agree 
very much with the national security concerns that we should 
all have in this regard.
    Within the Department of Homeland Security, HSI--Homeland 
Security Investigations--is very involved, as you pointed out, 
with DEA in dealing with the problem of synthetic drugs.
    HSI, in my observation, is a terrific aggressive law 
enforcement organization. I have a good deal of confidence in 
their ability to address this issue, and I appreciate your 
interest in this.
    Mr. Bachus. From what I have read and learned from talking 
to DEA and other agencies, the actual majority of these funds 
derived from the profits are going to the Middle East.
    Have you found that to be the case? Are you aware of that?
    Secretary Johnson. I share that observation.
    Mr. Bachus. Thank you.
    When I was on the Oversight Subcommittee, we had hearings 
on--and we focused on cocaine from Colombia. But I think 
synthetic drugs, which you don't hear a lot of talk about, 
should be getting the same attention today. And I am not sure 
the American people realize just how serious this type of drug 
use is.
    Would you like to comment on that?
    Secretary Johnson. It is a growing epidemic, sir. And when 
I was a prosecutor 25 years ago, it was crack cocaine. Now we 
are seeing other illegal narcotics that are causing a lot of 
destruction and heartache in our community.
    And I think the Department of Homeland Security has a role 
in addressing this through HSI, CBP, other organizations within 
the Department. I think we have got a role, and I think we need 
to make an investment in this. So I agree with your assessment, 
and I share your concern.
    Mr. Bachus. Thank you.
    The last thing I have learned is almost all of these 
synthetic drugs, the material is being produced in China and 
then shipped to the United States where, actually, $1,000 worth 
can be turned into $250,000 on the street.
    The State of Alabama--and I am very proud of our 
legislature--they recently passed a law which is Senate Bill 
333, which tries to stay one step ahead of drug producers.
    What that law does--what happens is the drug producers and 
the people marketing these will change the contents just a 
little to sort of stay ahead of the law because, you know, most 
of the laws say it has to be a certain material and it has to 
be a combination.
    And so all they do is tweak that drug. And I have actually 
been told that what they will do when they outlaw a certain 
combination, they will actually get on the phone and tell the 
folks in China, ``Change that formula.''
    Mr. Goodlatte. Time of the gentleman has expired.
    Secretary can respond if he has a response.
    Secretary Johnson. I share the Congressman's concern.
    Mr. Goodlatte. Thank you.
    The Chair recognizes the gentleman from New York, Mr. 
Nadler, for 5 minutes.
    Mr. Nadler. Thank you, Mr. Chairman.
    I want to join in welcoming Secretary Johnson, especially 
as a former constituent and a graduate of Columbia Law School 
in my district.
    Mr. Secretary, as you know, Congress passed a number of 
years ago the 9/11 Commission Implementation Bill which 
mandated that all maritime cargo must be scanned before it is 
loaded onto ships bound for the United States.
    When we wrote the law, we recognized that 100 percent 
scanning would be difficult to achieve overnight, which is why 
we gave DHS flexibility, 5 years to comply and allow for 
extensions of the deadline in certain cases.
    We assumed that 100 percent scanning would be phased in and 
that the Department would make an honest effort to comply with 
the law.
    Can you tell us what the Department is doing to make 
progress on container scanning. And do you commit to work with 
us in good faith to develop a plan for implementing the law?
    Secretary Johnson. Yes. As you and I have discussed, 
Congressman, I am very much aware of the 2007 law. It was first 
brought to my attention in the Senate confirmation process.
    And my general view is, if there is a duly enacted law by 
Congress that mandates certain things, I have got to make a 
good-faith effort to try to comply.
    Now, as you know, this particular law is a very large 
unfunded mandate. And so, when I got into office, I took a 
careful look at it. I have been to ports. I have looked at the 
logistics to try to set up a 100 percent scanning regime at 
overseas ports.
    And it is, to be frank, a very, very large project. And I 
have asked my folks, first of all, ``What is in our best 
national security interest?'' Second, as long as the law is on 
the books, we have got to make a good-faith effort to try to 
comply with it.
    And so I have had the conversation with Senator Markey, 
with you and others about how I am exercising my authority 
under the law to waive application of the law for the next 2 
years.
    But in that same letter, which I think you have seen, I 
have also talked about some of the steps we will take for a 
plan to try to get us there, in other words including raising 
the percentage of cargo that is scanned to move in the right 
direction on this and demonstrate we are making our best 
efforts at trying to comply. And it is set forth in the letter, 
which I think you have seen, sir.
    Mr. Nadler. Yes, I have. I want to thank you for your 
willingness to work with us.
    And I know that Homeland Security Ranking Member Bennie 
Thompson has been a great champion of this issue, too. And I am 
sure that he and I and perhaps others will want to meet with 
you to discuss in greater detail how we can develop a mutually 
agreeable path forward.
    I would like to also say that it is obviously the policy of 
the Administration that we should close the detention facility 
Guantanamo.
    We have been told by U.S. generals and others that the 
presence of that facility and our actions there have fueled 
terrorist sentiment and have been used to recruit terrorists 
who seek to do us harm.
    Can you tell the Committee if you believe that keeping 
Guantanamo open is a threat to our national security. Is it 
fomentingrecruitment of terrorists abroad and so forth?
    Secretary Johnson. Thank you for bringing me back to my 
last job in public service.
    Yes. I believe that the existence of Guantanamo as a 
detention facility represents an issue of national security. It 
has been a recruiting tool by Al Qaeda.
    I also believe that the guard force there is remarkably 
professional. It is a very well-run facility, but it is also 
hugely expensive.
    And there is going to come a point where--we may already be 
at that point it is no longer making sense from a taxpayer 
point of view to maintain such a hugely expensive multimillion 
dollar facility for what are today, I believe, something like 
less than 160 detainees.
    And so I know the President is committed to closing the 
facility, and I think that that for a number of reasons is a 
worthwhile objective.
    Mr. Nadler. Thank you.
    My last question is back to immigration. In recent months, 
we have heard reports about Immigration and Customs Enforcement 
officers conducting routine immigration enforcement actions at 
courthouses around the country.
    People have been apprehended by ICE when they went to the 
courthouse to pay a traffic ticket, to answer criminal charges, 
or to obtain a protective order. In one case, a person was 
detained when he appeared in court to get married.
    These enforcement actions will make immigrants afraid to 
appear for criminal hearings, to exercise their First Amendment 
rights to petition the government for redress of grievances, to 
seek protective orders in connection with instances of domestic 
violence, to advocate for the equal justice under law, and 
conduct other important civic business.
    ICE already has a policy regarding enforcement in sensitive 
locations such as schools, hospitals and places of worship.
    Do you agree or not that courthouses, which are essentially 
for the protection of our constitutional rights, only if you 
have access to those courthouses, should be added to the list 
of sensitive locations for ICE-appropriate discretion?
    Secretary Johnson. I received the letter on this, and I was 
a little surprised to find out that courthouses are not on the 
list of what we consider to be sensitive locations, though 
there is a separate policy dealing with courthouses that ICE 
has.
    My view is that, as you articulated it, courthouses are 
special. We ought to have a special policy with regard to 
courthouses.
    However, I can readily--I can see certain circumstances 
where somebody really dangerous shows up at a courthouse where 
ICE or law enforcement, in general, needs to apprehend that 
person, just can't afford to let him go.
    Mr. Nadler. That would be the same if that person appeared 
at a hospital, too.
    Secretary Johnson. I can foresee exigent circumstances 
where somebody truly dangerous who is a fugitive or otherwise 
should be arrested on the spot, and I would support that. But 
this is an issue that I intend to look at more closely.
    Mr. Nadler. Thank you.
    I yield back.
    Mr. Goodlatte. Thank you.
    The Chair recognizes the gentleman from Virginia, Mr. 
Forbes, for 5 minutes.
    Mr. Forbes. Mr. Chairman, thank you.
    Mr. Secretary, thank you for being here. We appreciate your 
appearance today. Also, I appreciate your friendship, your 
service in the Department of Defense, and your service in your 
current position.
    I was not surprised when I read on your confirmation 
hearing that you pledged transparency and candor with Congress, 
and it is that transparency and candor that we appreciate and 
we ask today.
    We have had testimony before this Committee that violent 
criminal gangs are a major problem in the United States and 
some of those gangs, such as MS-13, are one of the most 
violent.
    We have had----
    Secretary Johnson. I am sorry, sir. I didn't hear----
    Mr. Forbes. MS-13, one of the most violent criminal gangs, 
that as many as two-thirds----
    Secretary Johnson. Yes.
    Mr. Forbes [continuing]. Of their members were here 
illegally.
    Last year, when ICE began releasing convicted criminals, I 
asked then-Director Morton how many of those released were 
members of violent criminal gangs, and I think the Committee 
was shocked that he didn't have a clue.
    Based on your letter that you submitted, I think, yesterday 
to the Committee, we now know that in excess of 36,000 
criminals have been released.
    And the question I would have for you today is: Of the 
36,000 released, do you have any clue how many were members of 
violent criminal gangs?
    Secretary Johnson. If you are referring to the letter I 
think you are referring to, it is a letter signed by the Deputy 
Secretary yesterday.
    And I believe that there is an attachment to the letter 
that has a numerical breakdown by category of the criminal 
convictions, and it may----
    Mr. Forbes. But it says nothing about whether they are 
members of violent criminal gangs.
    So my question is, one: Do you know of any records that you 
have of how many of those members released were members of 
violent criminal gangs?
    Secretary Johnson. If we have it, I will be happy to 
provide it.
    Mr. Forbes. You don't know of any today?
    Secretary Johnson. Sitting here right now, I don't know 
whether it is broken down----
    Mr. Forbes. Do you know whether we even ask individuals who 
are detained if they are members of a violent criminal gang?
    Secretary Johnson. I suspect we do in the immigration 
enforcement process, but I----
    Mr. Forbes. I would suggest you have no record of that. 
And, if you do, if you would correct me on that.
    The third question is: Isn't it true that individuals can 
receive asylum for withholding of removal if they simply claim 
that they have renounced their membership in a gang?
    Secretary Johnson. I am not sure about that, sir.
    Mr. Forbes. And then let me ask you this----
    Secretary Johnson. I know the asylum process. I am not----
    Mr. Forbes. Let me ask you this question.
    Secretary Johnson [continuing]. Sure of the specific answer 
to that question.
    Mr. Forbes. Did you conduct a town hall meeting at DHS 
office in Fairfax, Virginia, on April 23, 2014, with ICE agents 
and officers present?
    Secretary Johnson. Yes, sir, I did.
    Mr. Forbes. Did they voice strong concerns to you that gang 
members, other public safety threats, and criminals are being 
released due to new Administration, DHS policy such as DACA, 
and John Morton's arrest priorities memorandum?
    Secretary Johnson. We talked about a lot of things.
    Mr. Forbes. Did they express concern about what I just 
outlined to you?
    Secretary Johnson. I recall discussions about pay. I recall 
discussions about----
    Mr. Forbes. That is not my question. And you know I have 
only got a certain amount of time, Mr. Johnson.
    Did they or did they not express strong concerns to you 
that gang members and public safety threats and criminals were 
being released based upon the Administration's policies?
    Secretary Johnson. I don't recall that statement in that 
way.
    Mr. Forbes. Let me suggest that they did.
    Secretary Johnson. But I'm not doubting they did if 
somebody says they did.
    Mr. Forbes. The following question is this: Did these 
officers and agents tell you that the Administration policies 
have tied their hands, preventing them from keeping many 
dangerous criminals off the streets, and that, in their opinion 
as boots-on-the-ground officers in the field, the new policies 
are a failure?
    Secretary Johnson. I don't recall it that way. I do recall 
a recognition that we should be going after the worst of the 
worst in our enforcement priorities.
    Mr. Forbes. So you have no recollection that these agents 
expressed these concerns to you?
    Secretary Johnson. That's not what I said.
    Mr. Forbes. Do you have a recollection of that?
    Secretary Johnson. I recall a general discussion about our 
enforcement priorities, and I recall that we all agreed that we 
should focus on the worst of the worst.
    Mr. Forbes. Mr. Secretary, I understand what you recall 
there. That is not my question. My question is, do you or do 
you not recall them expressing strong concerns about the issues 
I just raised to you?
    Secretary Johnson. Not exactly in the terms you stated it.
    Mr. Forbes. Okay. But pretty close to those terms?
    Secretary Johnson. In general terms, we had a discussion 
about our enforcement priorities. That is absolutely correct.
    Mr. Forbes. Okay. And, Mr. Johnson, thanks for not 
answering that question. It certainly is a violation of what 
you pledged that you were going to do in transparency and----
    Secretary Johnson. I gave you my best recollection, sir.
    Mr. Forbes. I understand. I would think that would be a 
strong thing that you would remember if it was expressed that 
way, and it was expressed that way as I understand it.
    Next question, final question I have for you is, we now 
know, based on a GAO report, that DHS has purchased 84 million 
rounds of ammunition, totaling $19 million. Can you tell us and 
give us a report back as to what that ammunition is used for 
and what caliber bullets are being used for?
    Secretary Johnson. Sitting here right now, I can't give you 
that information. But I'd be happy to provide that to 
you.<greek-l>waiting on response, sent 6/11/14, due 7/9/
14 deg.3
    Mr. Forbes. And just for the record, the information I gave 
came from the ICE union who was present at that particular 
hearing with you, and they stated that that's what they 
expressed.
    And with that, Mr. Chairman, I yield back.
    Mr. Goodlatte. Chair thanks the gentleman, recognizes the 
gentleman from Virginia, Mr. Scott, for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary.
    Mr. Secretary, in the aftermath of the typhoon in the 
Philippines many Members of Congress, and many people in the 
Filipino community, pushed for temporary protective status. Can 
you give me an update on what the status of the TPS for those 
in the Philippines is today?
    Secretary Johnson. It is under review, and I believe we are 
close to the finish line on that review, sir.
    Mr. Scott. Good. Keep pushing.
    I understand that under the Prison Rape Elimination Act 
that regulations in Homeland Security are going into effect at 
this time. Are you proactively trying to renegotiate private 
contracts to make sure that the new regulations apply to 
contractors as well as the government facilities?
    Secretary Johnson. I've checked on the status of that, and 
I believe that we are, sir.
    Mr. Scott. Can you say something about the use of solitary 
confinement in government facilities and private facilities?
    Secretary Johnson. Well, an immigration facility is not 
like a prison. I can imagine circumstances in any detention 
facility where somebody needs to be separated and placed in 
some form of solitary confinement for reasons of safety, force 
protection, or other circumstance. So I wouldn't rule it out 
necessarily. But I do recognize that an immigration detention 
facility is different in nature from a prison where convicted 
criminals are being housed.
    Mr. Scott. Changing subject to Fast and Furious. It's my 
understanding that this process started during the Bush 
administration, that the Attorney General during that 
Administration was aware of it, and it continued into the Obama 
administration. But when Attorney General Holder found out 
about it, he put an end to it. To the best of your knowledge, 
is anybody in your Department now facilitating the trafficking 
of firearms to terrorists and drug dealers?
    Secretary Johnson. Not to my knowledge, sir.
    Mr. Scott. Thank you.
    In terms of airport screening, there is a program spot 
screening passengers by observation techniques. Are you 
familiar with this program?
    Secretary Johnson. Yes, I believe I am.
    Mr. Scott. Can you explain how this can be done without 
ethnic profiling or how it can be done effectively?
    Secretary Johnson. I think that behavioral screeners at 
airports--it is a pretty sophisticated methodology. I've had 
one or two briefings on it, and I've had the same question and 
the same concern. I'm satisfied that, whether it is airport 
security or other activities of the Department of Homeland 
Security, that there are ways to do what we need to do to 
screen for aviation security threats, other threats, without 
engaging in sort of any racial profiling.
    Now, immigration enforcement, border security, is different 
from law enforcement in general. It's different from stop and 
frisk in general. We do in various contexts take account of the 
nationality of people in the Administration and enforcement of 
our immigration laws. And so there's a distinction there. But I 
do believe that we should not be engaging in racial profiling 
per se.
    Mr. Scott. Thank you.
    Could you say a word about the process for reviewing 
incidents of use of deadly force by Border Patrol officers and 
whether or not that review process is adequate?
    Secretary Johnson. Yes. This issue has been one that I have 
focused on in my 5 months in office. As I suggested earlier, I 
think that transparency in our policies goes a long way to 
removing a lot of the controversy that may exist about a 
policy. And so a couple of months ago I encouraged CBP to make 
their use-of-force policy public, and the same with other 
components of DHS, and they have done that.
    I also encouraged the Chief of the Border Patrol to think 
about incorporating expressly into the policies issues about 
rock throwing, issues about when an agent feels threatened by a 
vehicle, and he did that. And I believe that we now have a use-
of-force policy that takes account of those things, which have 
been controversial in the past, but also preserves the agent's 
ability to defend himself if his life is truly threatened or he 
is in harm's way. So I think we are in a better place that we 
were before, sir.
    Mr. Scott. And is the review process adequate?
    Secretary Johnson. I'm sorry?
    Mr. Scott. When there is the use of deadly force, you 
review each case. Is that right?
    Secretary Johnson. Yes.
    Mr. Scott. And is that review process adequate? I 
understand that in no case has anyone been sanctioned for 
inappropriate use of deadly force?
    Secretary Johnson. I believe our officers should be held 
accountable for misconduct. I believe in that generally. Yes, 
sir.
    Mr. Scott. Thank you, Mr. Chairman. My time has expired.
    Mr. Goodlatte. The Chair thanks the gentleman.
    Recognize the gentleman from Iowa, Mr. King, for 5 minutes.
    Mr. King. Thank you, Mr. Chairman. I thank you for holding 
this hearing today. And I thank the Secretary for appearing and 
his testimony.
    As I'm listening to the testimony here, I happened to hear 
an exchange earlier that you have developed a plan to address 
the OTMs and the unaccompanied children and that that has 
become a significant problem on the southern border, especially 
the southern tip of Texas. I heard that correctly, Mr. 
Secretary?
    Secretary Johnson. Yes.
    Mr. King. Yes. And can you describe this plan to this 
Committee?
    Secretary Johnson. Sure. A couple of things. And it's 
definitely a work in progress. We are building on this, because 
it is a growing problem and we need to take steps to address 
it. And I am open to additional steps. In fact, when I go back 
to my office I am going to have a meeting on this very subject 
to look at all the options on the table.
    But what we have done so far, I have declared what's called 
a Level 4 state of readiness, which means we need to draw upon 
resources and assets of other departments to help us out. And I 
appointed within CBP a Federal coordinator for that effort. 
Number two, I have personally contacted the Secretary of HHS to 
highlight this as a problem that together we need to address, 
and she recognizes her obligations under the law to take these 
kids as soon as we identify them as unaccompanied children.
    Mr. King. Just for the information of this Committee, is 
this the plan that the President has asked you to withhold 
until such time as we get through the August break?
    Secretary Johnson. No, this is something totally different.
    Mr. King. Okay. Could you describe the plan that the 
President has asked you to withhold until we get to the August 
break? I think this Committee is really interested in what it 
is, the sword of Damocles that is hanging over our head. We 
would be very interested in knowing what that is.
    Secretary Johnson. What I am doing, what I am in the middle 
of reviewing right now is our enforcement priorities. That is 
what the President asked me to review in March. I actually had 
begun thinking about that before he made public his request, 
and I am still in the midst of the review. But he has asked me 
to hold on the announcement of that until the end of the 
summer.
    Mr. King. So if I asked you the question on what that might 
materialize to be as you know it today, your answer to me would 
be you don't want to answer that question?
    Secretary Johnson. I'm not in a position to answer it right 
now, and my review is not complete, sir. So if I gave you an 
answer it would be a premature answer. I'm sorry, I 
misunderstood your question earlier.
    Mr. King. Well, thank you. I take it that this is some type 
of derivation of the DACA plan. That is what we anticipate 
here. This Committee, on this side at least, understands that 
there is specific Federal law that the President has ordered 
ICE not to follow. And there is a lawsuit that is out there now 
that is working its way through the courts, the case of Crane 
v. Napolitano, that addresses this separation of powers issue 
and prosecutorial discretion.
    I'd ask you, does your policy that you're enacting now, the 
DACA policy--which I refer to as the deferred action for 
criminal aliens--does that create groups or classes of people 
as a result of the directive that we refer to as the Morton 
memos or DACA?
    Secretary Johnson. DACA, as I understand it was enacted 2 
years ago, and something like 600,000 people have enrolled in 
the program. It is up for renewal later this year. I anticipate 
that it will be renewed.
    Mr. King. Does it create groups or classes of people?
    Secretary Johnson. I'm not sure I understand your question.
    Mr. King. By the definitions and the directives that are 
DACA or the Morton memos, is the result of that that the 
definitions create groups or classes of people, rather than, as 
I saw seven times referenced in that document delivered by 
Janet Napolitano, she said seven times, or referenced to, on an 
individual basis only, prosecutorial discretion on an 
individual basis only. I am asserting to you that it creates 
groups or classes of people and asking you whether you agree or 
disagree.
    Secretary Johnson. I now understand your question. The way 
DACA works, there is an individual assessment of whether or not 
the person can be in the program based on a background check, 
based on the particulars of that person's situation.
    Mr. King. So as the clock has turned yellow, do you agree 
or disagree that it produces and results in groups or classes 
of people?
    Secretary Johnson. There is a class of people who are 
eligible for the DACA program, but they've got to go through a 
background check for criminal history and so forth.
    Mr. King. May I ask you another question? I have an 
amendment that is pending a vote right now on the floor of the 
House of Representatives with regard to the Justice 
appropriations that directs the Attorney General to investigate 
these tens of thousands of criminals that have been released 
onto the streets, partly as a result of this program, partly of 
others. If that becomes law, will you cooperate with the 
Department of Justice in that particular investigation?
    Secretary Johnson. You can always count on me to comply 
with the law, sir.
    Mr. King. Thank you, Mr. Secretary. Appreciate it.
    Mr. Goodlatte. The Chair thanks the gentleman.
    Recognize the gentlewoman from California, Ms. Lofgren, for 
5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for being here with us today. 
I think that your openness is really a breath of fresh air here 
for the Committee, and the transparency that you are seeking to 
provide to not just the Committee, but to the country, is very 
welcome.
    It is often said that the Immigration and Nationality Act 
is as complicated and convoluted as the Tax Code, and I think 
that is about right. Therefore it can be very confusing. I 
mean, it is easy to throw numbers around and impressions can be 
created that may not be accurate.
    For example, it was stated earlier, I think by the 
Chairman, that the Committee had learned that between 2008 and 
2011 ICE declined to take enforcement action against 160,000 
people who were arrested by State or local law enforcement 
agencies. Now, the nonpartisan Congressional Research Service 
produced the subpoena and provided us with a report, and 
according to their analysis more than 60 percent of those 
people were legal permanent residents of the United States. 
They couldn't be removed until they were convicted of an 
offense.
    So I think it's important to note that we are not just 
talking about individuals who are present without proper 
immigration documents. We are talking people who are legal 
permanent residents of the United States, in some cases have 
lived here for decades, and maybe ran afoul of the law.
    I'm concerned that as we take a look at how we are applying 
our enforcement standards, that we take a look at the nature of 
the offenses that are at issue. We know that the most common 
Federal prosecution in the United States today is felony 
reentry after removal. And in most of those cases, from best we 
can tell, those are individuals who are trying to get back to 
their families here in the United States. They are doing what 
former Governor Bush described as an act of love. They are 
trying to come back to be a parent to their children.
    And so I'm hopeful that we can take a look at what we are 
actually doing here when you take a look at the review. I was 
looking at former Director Morton's detainer memorandum. I 
think it is very instructive why so many communities are 
refusing to cooperate with the Department today. And in fact 
the State of California passed a law saying they will not 
respond to the Department of Homeland Security. It says a prior 
felony conviction, but it doesn't actually specify that could--
if that conviction is really just about immigration, trying to 
get back to their kids, we look at it differently than if you 
commit a criminal offense.
    An individual has illegally reentered the country after a 
prior removal or return, an individual who has an outstanding 
order of removal. These are really immigration offenses and 
they deter individuals from cooperating with the police, which 
is why all the police chiefs have come out against the Secure 
Communities program.
    So I guess my question to you, Mr. Secretary, is as you 
take your review of our enforcement, I think we all agree that 
we want to focus on people who are violent, who harm others. 
But I'm noticing that the single biggest removal category in 
2013, more than half, was for immigration violations. Are you 
going to be able to take a look at those issues as you review 
this, sir?
    Secretary Johnson. I'm in the midst of taking a look at 
those issues. One observation I'll make, I think that as I've 
looked at this guidance myself, which covers a multiyear 
period, I see a certain lack of clarity in the prioritization 
and the guidance, and I think we could do a better job there.
    Ms. Lofgren. Well, I thank you very much for that. And I 
wanted to just briefly touch on the unaccompanied alien minors. 
I know that you are concerned about the surge and that it is 
important. And we have recognized as a Congress, we've passed a 
law that these little children are not going to be treated as 
criminals. But what efforts can we make to deal with Central 
American nations so that they can take some responsibility for 
these little kids, I mean, some 3- and 4-year-old kids that end 
up in our custody?
    Secretary Johnson. I've had this conversation with the 
Ambassadors from Mexico, Guatemala, El Salvador, and Honduras, 
this exact question. And I think a lot of it is public 
messaging in English and in Spanish. Don't send your child or 
send for your child through south Texas. A processing center in 
south Texas is no place for a child.
    I think that we have to work with the governments of 
Central America on migration from their countries. I plan to go 
to Guatemala myself in the month of July on this issue. And 
there are a number of other things that I think we can do. And 
I'm sensing a fair amount of receptivity from those governments 
to work with us on this. I think we all recognize, including 
them, that we have a problem in this area and we need to more 
aggressively address. And that's one of my priorities, and I'm 
personally invested in it.
    Ms. Lofgren. Thank you very much, Mr. Secretary. I see my 
time has expired.
    Mr. Goodlatte. The Chair thanks the gentlewoman.
    Recognize the gentleman from Arizona, Mr. Franks, for 5 
minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And, thank you, Secretary Johnson, for being here with us 
today.
    Mr. Secretary, I know you----
    Secretary Johnson. Nice to see you again, sir.
    Mr. Franks. Thank you.
    I'm sure you've heard about the case regarding Meriam 
Ibrahim, the Sudanese Christian who was sentenced to death for 
apostasy. Her husband is a U.S. Citizen and she has two young 
children, one of which was just born 2 days ago in her mother's 
prison. Now, both of these children are eligible for U.S. 
citizenship, and this case has become so high profile that many 
of us are deeply concerned about Meriam's safety in Sudan, 
especially if she wins her appeal and is released back into the 
Sudanese society at large.
    So my question to you, Mr. Secretary, will you assure this 
Committee that you will prioritize this case and quickly review 
the possibility of granting Meriam a safe haven in the United 
States?
    Secretary Johnson. Congressman, I will personally, along 
with the appropriate component heads, take a look at this case. 
It sounds troubling.
    Mr. Franks. Thank you. Is this a case you were aware of at 
this point?
    Secretary Johnson. I was generally familiar with the case, 
I think. But I will take a look at the case, yes, sir.
    Mr. Franks. Thank you, sir.
    Mr. Secretary, the DHS Act of 2002, as you may know, lays 
out the roles and responsibilities of the Assistant Secretary 
of Infrastructure Protection. First, can you tell us which 
Federal agency has the primary responsibility of protecting the 
electric grid? And secondly, has your Assistant Secretary made 
recommendations to protect the electric grid from all known 
significant hazards, to include EMP and GMD, as mandated, of 
course, in her role? And if not, why would DHS hesitate to do 
everything possible to protect the electric grid from 
potentially catastrophic events?
    Secretary Johnson. Within DHS, sir, NPPD, our National 
Programs Protectorate Directorate--I think I have got that 
right--is responsible for critical infrastructure, including 
power grids and the like. In conjunction with other Federal 
agencies, we have that responsibility. But it's not ours alone. 
It's a shared responsibility with other Federal agencies. But 
within DHS, that's the place where it belongs. And I agree with 
the sentiment of your question about the importance of 
protecting power grids and substations and the like.
    Mr. Franks. Well, we have a letter from DTRA that expresses 
that the primary responsibility of protecting the power grid is 
assigned to the Department of Homeland Security with assistance 
from the Federal Energy Regulatory Commission. And I guess I'm 
just wondering why this isn't even insinuated right now in your 
emergency protocols, electromagnetic pulse or geomagnetic 
disturbance. And I'm hoping that if nothing else comes from 
this, that that is on your radar, because we have additional 
information that seems to indicate that the threat is more 
significant than we have been aware of. Will you take that 
back?
    Secretary Johnson. I will be happy to take a look at that, 
sir.<greek-l>waiting on response, sent 6/11/14, due 7/9/14 deg.
    Mr. Franks. All right. And with that, Mr. Chairman, I am 
going to yield back.
    Mr. Goodlatte. Chair thanks the gentleman, recognizes the 
gentlewoman from Texas, Ms. Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. Let me thank the Chairman and the Ranking 
Member.
    Mr. Secretary, thank you. Welcome to the Judiciary 
Committee. And let me on the record thank the many men and 
women of the Department of Homeland Security that I have had 
the privilege of working with for more than a decade, certainly 
since the heinous act of 9/11. All of us are committed to the 
security of this Nation, and we know that every day members of 
your staff, of this Department, are on the front lines 
unthanked. Not unappreciated. I'm sure my Members on this panel 
would say that they are appreciated. But they go by every day 
without thanks. And every day that we stay secure in this 
Nation we owe them a debt of gratitude, and I want to publicly 
make that point.
    We work together to improve their work performance, how we 
can add resources that are effectively used, not just throwing 
money after an issue. And we are a team. And I think that is 
the approach that I hope that you perceive these questions, 
certainly mine, and recognize that we have to do this together.
    I have a series of questions, and let me quickly proceed 
with them. I have worked with my colleague, Congresswoman 
Lofgren, for a number of years, and Members of this Committee, 
on the unaccompanied children. I know that you were at the 
border. The numbers should be stated for the record, some 
60,000, an increase of over 800 percent since 2011. My 
Subcommittee on Border Security and Maritime Security on 
Homeland Security had a hearing and markup which we added 
language to the border security authorization bill on the 
determination of resources used in a slightly different 
perspective, on the issue of human trafficking, unaccompanied 
children.
    But I raise these issues. I would partly like them to come 
in writing, because I have another series of 
questions.<greek-l>waiting on response, sent 6/11/14, due 7/9/
14 deg.
    I am concerned about the detention conditions of these 
children. We know that this Committee some years ago referred 
the HHS jurisdiction in particular on these children, 
particularly the families and youth commission. I understand 
that detained immigrants are the cleanup persons in some 
detention centers. I don't know if they are cooking food, but 
they are cleaning up. I want to know what is your understanding 
of that situation and whether children are used to clean up and 
do work as well.
    What kind of legal representation does the DHS provide, or 
are they seeking to have a structure providing legal 
representation for these unaccompanied children?
    If you could answer that. Let me just give my questions, I 
think it is important, because some of them you will have to 
give in writing and I apologize to you.
    I have a sheriff that you have had the opportunity to meet 
with in Harris County who has mentioned the effectiveness of 
287(g). Let me say that he has done an enormous job with 
respect of including or writing an MOU that would include 
having ICE at the table. But the real point is that under 
287(g) we are finding out that 85 to 90 percent of the people 
are not terrorists and drug cartel members, but simply 
trespassers, marijuana possessors, mostly people working in the 
community, not dangerous.
    And therefore, the funding that we are using is not 
capturing people to allow us to be safe. I would like to know 
whether you are assessing the effectiveness of 287(g) and the 
moneys that we spend for it.
    Many of us have worked for the people who are now residing 
in Camp Liberty. The MEK has been declared a nonterrorist group 
in the United States. My understanding as these individuals at 
Camp Liberty are trying to assimilate and receive status in the 
United States, that DHS and FBI officers are asking them to 
deny their affiliation with the MEK, which is no longer a 
terrorist group. That poses a great difficult for any of these 
individuals trying to get here to the United States of America.
    So I would like you to begin on the children and then work 
on the issue of the 287(g). But I would like you to get to MEK. 
So if you can't get to everything then just answer MEK and I 
will take the others in writing.
    Secretary Johnson. First of all, thank you for those 
questions. We are concerned about the plight of the MEK, and we 
are taking a special look at interviewing them, screening them 
for the purposes that you have referred to. I am not on the 
ground there, I am not firsthand familiar with how that process 
is going, but it's something that I know our government is 
focused on, and we have made commitments that we seek to 
fulfill with regard to the MEK.
    I'm very focused on the issue of the children in south 
Texas, as you know, Congresswoman. I visited there personally. 
I'm concerned about detention conditions, as I was in the 
Department of Defense, our detention facilities in DOD. I took 
a special interest in conditions of confinement and advocated 
for and saw a number of improvements to our conditions of 
detention. And so that's a special interest of mine that I'm 
continuing at DHS.
    My understanding of the work program is it's voluntary in 
nature at our facilities. Nobody is required to work if they 
don't want to. It is a form of activity for people who want to 
work and get paid for their work. Now, is it a lot of money? I 
don't think it is. But it is a voluntary program.
    Ms. Jackson Lee. Well, let me just conclude by saying, if I 
can explore it further with you, if we can engage in meetings 
on this, as well as a further understanding of the actual 
questioners or people on the ground in Iran regarding Camp 
Liberty. You are not there, but the question has to be, if they 
have been removed off the list, why would that be asked or seen 
as a bar, meaning that they have to denounce it? And I do think 
we need to be fair in the process.
    So I look forward, Mr. Chairman--I thank the Chairman--I 
look forward to, Mr. Secretary, pursuing these more 
definitively, both in terms of the detention center and 
children, 287(g), which I mentioned to you, and the MEK. Thank 
you.
    Mr. Goodlatte. The time has of the gentlewoman has expired.
    The Chair recognizes the gentleman from Texas, Mr. Gohmert, 
for 5 minutes.
    Mr. Gohmert. Thank you, Mr. Chairman.
    Let me just say I agree with my colleague from Texas about 
Camp Ashraf and the injustices that have gone on, and 
appreciate you looking into that.
    Secretary Johnson, back in 2011 and 2012 I had 
conversations here in a hearing with Secretary Napolitano about 
one of the top advisers at Homeland Security, named Mohammed 
Elbiary. I had asked her if she knew about his downloading of 
two documents utilizing the classified secret clearance that 
she had given him and she said no. However, the night before 
the director of the Department of Public Safety in Texas had 
been assured she was briefed that evening about the situation. 
So either Secretary Napolitano lied to me or we have people at 
Homeland Security that are lying to State officials. Neither of 
those is a good situation.
    So I have got a letter here dated May 28 asking to you look 
into this. She said later in 2012 she had looked into the 
situation and said that he, Mr. Elbiary, did not shop these 
documents he downloaded. And the fact is there is a reporter 
that did the story and I know from talking to the reporter even 
yesterday that nobody contacted the reporter to get the 
information. It's kind of like asking Tsarnaev: Are you 
radicalized? Asking his mother: Are you radicalized? And then 
being satisfied that a Boston bombing won't occur. It is not 
adequate, and we hope that you will look into that. I have 
letter dated May 28 asking you to do that. Would you look into 
the matter further? It is a serious matter if someone with the 
Homeland Security Advisory Council has shopped information he 
downloaded. Wouldn't you agree?
    Secretary Johnson. I read the exchange that you had with 
Secretary Napolitano a couple of years ago. I'm not----
    Mr. Gohmert. But my question is, do you agree that if 
someone on the Advisory Council has shopped documents to a 
national media outlet that he downloaded that would be a 
serious matter, wouldn't it?
    Secretary Johnson. I agree that unauthorized disclosures of 
government information is problematic.
    Mr. Gohmert. Right. So would you agree to look further into 
the matter since nobody bothered to contact even reporter that 
put it in print that that had happened?
    So also I found the Texas resources very reliable and I've 
provided information that from October 2008 to April 2014 Texas 
identified a total of 177,588 unique criminal alien defendants 
booked into Texas county jails. These individuals have been 
identified through the Secure Communities initiative in which 
Texas has participated since August of 2008. A review of these 
177,588 defendants shows they are responsible for at least 
611,234 individual criminal charges over their criminal 
careers, including 2,993 homicides, 7,695 sexual assaults.
    And I know that these numbers are staggering. ICE's total 
docket for 2013 was 1,813,504, with total departures of 
386,000. So to the end of fiscal year 2013, less than 2 percent 
of ICE's caseload was in detention, and they report 872,000 
cases on the docket who had received final orders of removal 
but had not yet been deported.
    Since those cases are only counted after due process has 
been exhausted, sir, I know you are new to the situation, but 
are you going to formulate a plan to reduce the massive numbers 
of aliens in this country illegally that have been ordered 
removed from the United States?
    Secretary Johnson. I may be new to the job but I'm 
responsible for the Department from the day I started.
    Mr. Gohmert. Sure.
    Secretary Johnson. In general I believe that we need to do 
a better job of working more effectively with State and local 
law enforcement.
    Mr. Gohmert. My time is running out and I just need to know 
whether or not you are going to formulate a plan to reduce 
those numbers and the backlog awaiting deportation--been 
ordered deported.
    Secretary Johnson. I think we need to reduce the backlog, 
but I need help from Congress to do that. You give me the 
resources to do the job. I have a finite amount of----
    Mr. Gohmert. Sir, that is the amazing thing. If you do the 
job, and we see you doing the job, then you get the resources 
you need.
    I have other questions, and I would ask that the letters 
dated May 28 and May 29 be provided to the Secretary in seeking 
written answers to the questions, if you would be amenable to 
having those answered for me.
    Secretary Johnson. Thank you, sir. I look forward to your 
letter. I will read it personally.
    Mr. Gohmert. Okay. Thank you. Let the record reflect those 
are being provided at this time. Thank you.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Puerto Rico, Mr. Pierluisi, for 5 
minutes.
    Mr. Pierluisi. You did it very well, Mr. Chairman. It is a 
hard one to pronounce. Thank you.
    Secretary Johnson, welcome to the Committee. In your short 
time in office you have already proven yourself a worthy 
successor to Secretary Napolitano. She traveled to Puerto Rico 
in 2012, and I hope you will visit the island as well.
    I would like to outline an narrative for you and then ask 
you to comment. I took office in 2009. That year there were 
about 900 homicides in Puerto Rico, home to less than 4 million 
American citizens. In 2010 there were nearly 1,000 homicides. 
And in 2011 there were over 1,100 homicides, an average over 3 
a day, the most violent year in the territory's history.
    In each year our homicide rate was four to six times the 
national average and twice as high as any State. Of every 10 
murders in Puerto Rico, seven to eight are linked to the drug 
trade. Puerto Rico is within the U.S. Customs zone and is used 
by organizations transporting narcotics from South America to 
the U.S. mainland.
    Given this crisis, I examined the level of resources that 
DHS and DOJ were dedicating to combat drug-related violence in 
Puerto Rico and it was clear that the Federal law enforcement 
footprint on the island was inadequate. Let me give two 
examples on the DHS side.
    First, in 2011 patrol aircraft from the Coast Guard, the 
lead agency for maritime drug interdiction, conducted a meager 
150 flight hours of drug interdiction operations in Puerto 
Rico. If Puerto Rico were a State, that would have never been 
allowed to occur. Second, and also in 2011, CBP closed a boat 
unit in San Juan that had seized over 7,000 pounds of drugs the 
previous year. Clearly there was a disconnect between the 
problem in Puerto Rico and the Federal response.
    Along with colleagues like Congressman Michael McCaul, who 
is now the Chairman of the Homeland Security Committee, I did 
everything within my power to highlight the need for additional 
Federal resources in Puerto Rico. My colleagues here can attest 
to this, having heard me raise this issue every time a DHS or 
DOJ official appears before this Committee. I have no 
alternative because the stakes are too high.
    Starting in 2012, our message finally began to sink in, 
particularly at DHS. Much of the credit owes to Secretary 
Napolitano who, as noted, traveled to Puerto Rico and upon her 
return created a DHS task force charged with taking steps to 
reduce Puerto Rico's murder rate. As a result of this 
initiative, ICE surged 30 agents to Puerto Rico last year where 
they made hundreds of arrests and seized vast quantities of 
illegal drugs and firearms.
    Between 2009 and 2013, the Coast Guard tripled the number 
of days its ships spent conducting counterdrug operations in 
the waters of Puerto Rico. The number of Coast Guard flight 
hours increased from 150 in 2011 to approximately 1,000 in 
2013. And CBP, having assumed control of the counterdrug 
Aerostat radar program this year, moved quickly to repair the 
radar in southern Puerto Rico that had been destroyed because 
of bad weather in 2011.
    The result of this DHS effort, combined with enhanced 
effort by DEA and DOJ and other DOJ component agencies, has 
been remarkable. Puerto Rico still has the highest murder rate 
in the country, but the number of homicides this year is on 
pace to be 40 percent lower than 2011.
    The lesson, Mr. Secretary, is clear. When the Federal 
Government is committed to combating drug-related violence in 
Puerto Rico, hundreds of my constituents' lives are saved each 
year. I'd like to give you the chance to comment on the 
narrative I just laid out, and I hope you can assure that 
Puerto Rico will continue to be a top priority for the agency 
you now lead.
    Secretary Johnson. Well, first of all, thank you for the 
comments. I'm pleased to know that we have been able to make 
progress since 2012 in what is obviously a very, very important 
issue and a very big problem.
    Hopefully, I'd like to be able to continue the progress 
that Secretary Napolitano began in 2012. This is an issue for 
me that I intend to focus on, and hopefully together we'll be 
able to continue to make that progress, make good progress.
    Mr. Pierluisi. Thank you.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Texas, Mr. Smith, for 5 minutes.
    Mr. Smith of Texas. Thank you, Mr. Chairman. I have a brief 
statement and then I have some questions after that.
    The Department of Homeland Security last year released 
36,000 criminal immigrants into our neighborhoods. This would 
be considered the worst prison break in American history, 
except it was approved by the President and carried out by 
immigration officials. By the Administration's own admission, 
90 percent of those who were voluntarily released had committed 
thousands of crimes such as murder, sexual assault, kidnapping, 
drug trafficking, and hit and run. Should someone be charged 
with crimes against humanity?
    Here are some of the other ways the President has ignored 
or undermined current immigration laws. The Secure Fence Act of 
2006 requires the DHS to prevent all unlawful entries into the 
U.S., yet the Government Accountability Office reported in 2011 
that only 6.5 percent of the southwest border is under full 
control. The DHS' widespread abuse of prosecutorial discretion 
ignores the statutory requirement to apprehend and remove 
illegal immigrants.
    Immigration and Customs Enforcement weakened the rules that 
required illegal immigrants to be detained. The Administration 
has undercut the ability of local law enforcement officials to 
apprehend illegal immigrants, and currently the DHS is 
reviewing deportation policies and no doubt will weaken them 
even more.
    If the President cannot be trusted to enforce current 
immigration laws, how can he be trusted to enforce future 
immigration laws?
    Mr. Secretary, a couple of questions. First of all, in 
regard to the homicides that have been committed by those who 
were voluntarily released, will you be able to provide this 
Committee with the details of those homicides? Who was 
involved, the nature of the crime, the date, and so forth?
    Secretary Johnson. It is something that I am interested in 
understanding further, and I will provide that information to 
you also.<greek-l>waiting on response, sent 6/11/14, due 7/9/
14 deg.
    Mr. Smith of Texas. Okay. You have that information, do you 
not, in hand?
    Secretary Johnson. I'm sorry?
    Mr. Smith of Texas. You have and information available to 
you, do you not?
    Secretary Johnson. I will share that information to you 
once I have it. I wrote you a letter.
    Mr. Smith of Texas. Right.
    Secretary Johnson. We wrote you a letter that was signed 
out yesterday that more generally talks about this issue. But 
I'm interested in understanding further some of these more 
serious cases, and I will share that information with the 
Committee.
    Mr. Smith of Texas. Okay. You had that information or you 
wouldn't have been able to give us the details you did in the 
letter that you wrote. When can we expect to get the details of 
those homicides?
    Secretary Johnson. Not long after I get it.
    Mr. Smith of Texas. Do you expect that to be in the next 
week or two?
    Secretary Johnson. I'm not sure, but not long after I get 
it, sir. I will make that commitment to you.
    Mr. Smith of Texas. Okay. Are you saying under oath right 
now you do not have that information?
    Secretary Johnson. What's that?
    Mr. Smith of Texas. Are you saying under oath right now you 
do not have that information?
    Secretary Johnson. I personally do not have the information 
about the specific details of those cases.
    Mr. Smith of Texas. Not you personally, but the DHS does 
not have that information? Are you saying that?
    Secretary Johnson. Somewhere in the Department hopefully 
that information exists.
    Mr. Smith of Texas. Okay.
    Secretary Johnson. I have asked for a greater understanding 
of these particular cases, and I'm waiting for the answers to 
that information.
    Mr. Smith of Texas. And you will get that to us, we hope, 
in a timely fashion. Is that right?
    Secretary Johnson. I don't have a problem with sharing 
further details about these particular cases with the 
Committee.
    Mr. Smith of Texas. Okay. Thank you.
    My second question is this: In your prepared testimony for 
today you said comprehensive immigration reform is not amnesty. 
Let me read you the definitions of amnesty. The first is from 
Black's Law Dictionary, ``A pardon extended by the government 
to a group or class of persons. The 1986 Immigration Reform and 
Control Act provided amnesty for undocumented aliens already 
present in the country.'' And from Merriam-Webster Dictionary, 
``The act of an authority as a government by which pardon is 
granted to a large group of individuals.''
    Now, whether individuals pay a fine or back taxes to 
receive citizenship is irrelevant to the definition of amnesty. 
Therefore, would you agree that the Administration has given 
amnesty to thousands of individuals and that the Senate 
immigration would have provided amnesty to millions of 
individuals, at least under the definitions that I just read 
from you Black's Law Dictionary and from the Merriam-Webster 
Dictionary?
    Secretary Johnson. Through prosecutorial discretion, we 
prioritize our use of resources. And through the DACA program, 
we can defer action to a certain category----
    Mr. Smith of Texas. Mr. Secretary, that is not an answer. 
Do you agree with the Administration's policies that resulted 
in amnesty to hundreds of thousands of people and do you agree 
that the Senate bill would have provided amnesty to millions of 
people under the definitions that I just read you?
    Secretary Johnson. That's not what I consider amnesty.
    Mr. Smith of Texas. So you disagree with Black's Law 
Dictionary's definition of amnesty?
    Secretary Johnson. I don't believe that DACA or any act of 
prosecutorial discretion in the administration of our 
immigration laws constitutes amnesty as I understand the 
concept of amnesty, and I think I do.
    Mr. Smith of Texas. Why wouldn't your concept of amnesty 
include the definition of amnesty in Black's Law Dictionary?
    Secretary Johnson. I'm not sure the answer to your 
question.
    Mr. Smith of Texas. Well, it seems to me it is kind of 
amazing that you would disagree with the longstanding 
definition of amnesty as given in various dictionaries. Now, it 
is not the first time the Administration wants to change the 
definition or change the terms. But I am absolutely amazed that 
you don't recognize the legal definition of amnesty.
    Thank you, Mr. Chairman. I'll yield back.
    Ms. Lofgren. Mr. Chairman, could I ask unanimous consent to 
put into the record two statements.
    Mr. Goodlatte. Sure. Would the gentlewoman describe those 
statements?
    Ms. Lofgren. One from the National Immigration Forum and 
one from the Human Rights First organization.
    Mr. Goodlatte. Without objection, those will be made a part 
of the record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
    Ms. Jackson Lee. Mr. Chairman?
    Mr. Goodlatte. For what purpose does the gentlewoman from 
Texas seek recognition?
    Ms. Jackson Lee. I would like to ask unanimous consent to 
add into the record a report by First Focus, ``The Cost of 
Inaction: Why Children Can't Wait for Immigration Reform.''
    Mr. Goodlatte. Without objection, the document will be made 
a part of the record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Goodlatte. The Chair recognizes the gentlewoman from 
Washington, Ms. DelBene, for 5 minutes.
    Ms. DelBene. Thank you, Mr. Chair.
    Secretary Johnson, thank you, for being here today. I want 
to take a moment and thank you and FEMA Administrator Fugate 
for traveling to Oso, Washington, the site of a massive 
landslide in my district that tragically took the lives of 43 
people. I think you will agree, it is impossible to describe 
the scale of what happened without being able to be there to 
see it, and I appreciate you coming out.
    The support of the Department through FEMA assistance has 
been very critical to everyone there. And as we continue with 
the recovery efforts, I look forward to continuing to work with 
you and FEMA to make sure that we have all the Federal 
resources available to support the communities of Oso and 
Darrington and Arlington as they continue in this long 
rebuilding process. So thank you again.
    I want to turn to the issue of immigration policy, which is 
particularly relevant in my district because we have the border 
with Canada, the northwestern border with Canada. Under Federal 
law, right now CBP officers have the right to stop and conduct 
warrantless searches on vessels, trains, aircraft, or other 
vehicles anywhere within a reasonable distance from an external 
boundary of the United States.
    Currently, Federal agents from CBP operate in a 100-mile 
zone drawn from any land or sea border, and this distance was 
established by regulation over 60 years ago. And while this may 
be sensible in some areas, especially in the southern border, 
in Washington State we have seen the Border Patrol set up 
checkpoints that disrupt commerce and hassle residents. I am 
particularly concerned about racial profiling complaints that 
we have received during vehicle stops. And I want to point out 
that last September in Washington State the Border Patrol 
reached a settlement agreement in a lawsuit alleging that the 
agency was engaging in discriminatory conduct in its stops.
    As a review of the Department's immigration policies moves 
forward, I'd ask you to take a close look at this. We need to 
provide our Federal officers with the tools they need to keep 
our borders safe and also keep our Customs and Border Patrol 
agents focused on their mission near the border. And so I 
wanted to ask for your commitment to review the 100-mile zone, 
whether this is a reasonable distance from the border, in 
particular for the northern border.
    Secretary Johnson. Yes, I will take a look at that. I will 
also take a look at our enforcement activities generally, at 
sea and elsewhere. It is a topic that I'm interested in as the 
head of this agency, as a lawyer, as a former prosecutor.
    I also want to comment on what I saw when I was in Oso. I 
think all the Members of the Committee should appreciate the 
remarkable community effort that we saw the day we visited 
there. Private citizens, local law enforcement, Federal law 
enforcement, State law enforcement, and just neighbors who had 
been at the site of the mudslide for like 2 weeks with no sleep 
trying to help their neighbors, trying to find evidence of 
their loss. It was a really remarkable effort. And so I just 
wanted to note that as well.
    Ms. DelBene. Thank you.
    Secretary Johnson. And I hope that your constituents are in 
a better place as a result, and please send them my regards.
    Ms. DelBene. Thank you, I will.
    Also, on Sunday The New York Times reported that, even as 
the Federal Government cracks down on undocumented immigrants 
and forbids businesses to hire them, it's relying on tens of 
thousands of immigrants each year to provide essential labor, 
usually for a dollar per day or less at detention facilities. 
And in Washington State, at the Northwest Detention Center in 
Tacoma, a privately run detention facility, detainees led a 
hunger strike recently to protest their conditions, which 
included concerns about their severe undercompensation for the 
labor they provide to keep these facilities running and without 
protections afforded to other workers.
    The vast majority of ICE detention facilities are operated 
under contracts with private prison companies and county 
governments. Given that, is there any statutory or regulatory 
impediment that would preclude DHS from requiring these 
contractors to pay wages to detainee workers that are higher 
than a dollar per day?
    Secretary Johnson. As I mentioned a moment ago, my 
understanding of the program is that it is on a voluntary 
basis. But I am concerned about conditions of confinement at 
our facilities. This is something that I have spoken to you and 
Adam Smith about, in particular the one in Washington State. I 
sent a group from my front office out a couple of weeks ago to 
visit this facility when the hunger strikes had started there 
and I intend to visit it personally myself, along with other 
detention facilities. In terms of the law and the legal 
requirements, that is something I would want to look into.
    Ms. DelBene. Thank you, I would appreciate it. Because I 
have met with individuals who were released from the detention 
center in Tacoma and they said that folks were put in solitary 
confinement for work stoppages, failing to show up to cover 
shifts. And so clearly that does not describe a voluntary 
scenario. But compensation has been important when they feel 
like they haven't had adequate food and they need to work to 
get enough money to buy things from the commissary and a dollar 
per day does not help them out very much. So I would appreciate 
your feedback on that going forward.
    And I yield back. Thank you, Mr. Chairman.
    Mr. Goodlatte. The Chair thanks the gentlewoman and 
recognizes the gentleman from Texas, Mr. Poe, for 5 minutes.
    Mr. Poe. Thank you, Mr. Chairman.
    Thank you for being here. A few questions about several 
things. One, my friend from Texas, Ms. Lee, has made some 
comments and questions about the MEK and their status overseas. 
I have some further questions, but I'm going to put those in 
writing and will tender those to you and ask for a written 
response to myself and the Chairman.
    Secretary Johnson. That's fine.
    Mr. Poe. The 36,000 that have been released, walk me 
through this. As a former judge I'd like to kind of figure out 
what their legal status is. What is their legal status in the 
United States now that they are released?
    Secretary Johnson. Well, your Honor----
    Mr. Poe. Hey, I've been called worse. What is their legal 
status in the United States now that they have been released?
    Secretary Johnson. Well, it depends. My understanding is 
that some of those 36,000 were lawfully in the United States. 
Others were not. Others were undocumented.
    Mr. Poe. The undocumented, what is their status?
    Secretary Johnson. They are undocumented immigrants that 
are subject to removal.
    Mr. Poe. Excuse me for interrupting. I have 5 minutes. So 
they are technically illegally in the United States?
    Secretary Johnson. Those who were undocumented, who were 
convicted of a crime. Now, there are all sorts of variations on 
this. We are talking about a class of 36,000 people.
    Mr. Poe. I understand.
    Secretary Johnson. But if you are undocumented and you are 
here and there is no special status, there is no special 
program----
    Mr. Poe. So you're illegally in the----
    Secretary Johnson [continuing]. You're not DACA, you're 
here illegally.
    Mr. Poe. Okay. The ones that were released that are 
undocumented that are now illegally in the United States again, 
did they get work permits?
    Secretary Johnson. Do they have what? Sorry.
    Mr. Poe. Did they get work permits when they were released 
from custody? After being released from custody, they are now 
illegally in the United States again, did they get a work 
permit?
    Secretary Johnson. I couldn't say categorically one way or 
the another. I'd have to know each individual case.
    Mr. Poe. Of the 36,000, did any of them get work permits?
    Secretary Johnson. I don't know the answer to that, sir.
    Mr. Poe. Will you find out the answer to that question?
    Secretary Johnson. We will try to find the answer out, yes, 
sir.<greek-l>waiting on response, sent 6/11/14, due 7/9/14 deg.
    Mr. Poe. Just roughly. You don't need to go through all 
36,000. Just roughly, percentage-wise, I'd like to know that.
    So let's take the ones that were undocumented. They are 
released. If they are rearrested for something, some other 
crime, then they are back in the status, they are back in jail 
again, and they go through the process again. Is that correct? 
In other words, they're not given some kind of stay out of jail 
free card now they have been released, talking about the 
undocumented ones.
    Secretary Johnson. I agree generally with that, yes, sir. 
That should not be the case.
    Mr. Poe. Okay.
    Secretary Johnson. Correct. If you are released under some 
conditions and you commit a crime, then that obviously changes 
the circumstances and somebody needs to reevaluate whether you 
should be running around on the streets. Correct.
    Mr. Poe. My understanding is your Department has the 
authority, obligation to report to the State Department those 
countries that do not comply with repatriation. In other words, 
a person commits a crime in the United States, they are a 
foreign national--forget whether it is legally or illegally--
but they are foreign national, they go to prison, they are 
ordered deported back to where they came from when they get out 
of prison, and countries don't take them back. Why would they? 
They have enough criminals of their own.
    The law says under some circumstances, after you make a 
recommendation to the State Department, that those countries 
can lose visas. Do you know of any time that that has happened 
in recent years, where that has actually been made, that 
somebody won't take them back--China is a good example of those 
that don't take them back, there are other countries, Vietnam--
where they refuse to take them back and that country lost 
diplomatic visas or any kind of visas because of their failure 
to take it back?
    Secretary Johnson. I know that there was a case several 
years ago. I've forgotten the country.
    Mr. Poe. Grenada, I believe it was.
    Secretary Johnson. I'm sorry?
    Mr. Poe. Grenada or Granada. One of those two.
    Secretary Johnson. It was a country, I've forgotten which 
country. But I know that that occurred several years ago.
    Mr. Poe. Would you get us an accurate report on that, when 
the last time that actually occurred where the recommendation 
was made?
    Secretary Johnson. Yes.<greek-l>waiting on response, sent 
6/11/14, due 7/9/14 deg.
    Mr. Poe. It seems to me that this problem is going to 
continue when countries don't have any sanction, punishment if 
you will, for failure to take back their lawfully deported 
criminals. And myself and others on the other side have 
legislation to try to fix this problem.
    I have other questions besides the MEK, but I am going to 
yield back my time to the Chairman. Thank you.
    Secretary Johnson. Thank you.
    Mr. Goodlatte. The Chair thanks the gentleman, recognizes 
the gentleman from Illinois, Mr. Gutierrez, for 5 minutes.
    Mr. Gutierrez. Thank you so much, Mr. Chairman.
    And welcome, Secretary Johnson.
    I guess I'd like to first of all start out by saying that I 
am disappointed, saddened, that you are not going to announce 
in the coming weeks. The President said that he had instructed 
you to do a review and to humanize our deportation processes in 
the next 90 days. So I was waiting for a couple of weeks to 
give you time to finish that review. I want to make that clear.
    I was in Richmond, Virginia, yesterday. I wish my 
colleagues on the other side of the aisle had been in Richmond, 
Virginia, with me. They would have met a woman who has a GPS 
ankle bracelet, two American citizen children. And I assure 
you, because of the ankle bracelet you might have thought of 
her as a criminal, I saw a mom. I saw a mother of two American 
citizen children. And she said, please help me. And I'm going 
to help her. And I hope you do, too, Mr. Secretary, continue to 
help people like her from this broken immigration system.
    I met three other women there--and there were reporters 
that come from Washington, D.C.--and one after another they 
told me about their broken families. We met a young woman, 
beautiful young woman, 18 years old, been her since she was 6, 
spoke in two languages. Clearly the United States is their 
home.
    And so I simply say to my colleagues on the other side of 
the aisle, I hear you. You want to talk about law and order and 
law and order and law and order. And I'm for law and order, but 
I'm also for compassion and justice. And we can find a way 
where you can have your law and order, and I think we can find 
a way where we can have justice and compassion, too. People 
make mistakes. There is a broken immigration system. We should 
find a way.
    The day before that, last Friday or last Saturday, I was in 
Riverside with Takano, and the day before that I was with 
Loretta Sanchez on Friday. That's how I spent my Memorial 
weekend, going and visiting. And everywhere there was the cry, 
Mr. Secretary, from people being deported, from families being 
devastated, from a community saying get the work done.
    So I wanted to simply say to my colleagues, look, we don't 
have to do it the way the Senate says, but I think we have to 
do it.
    And let me just stay this, Mr. Secretary. While I'm 
disillusioned, I'm conflicted, too, because I think it is a 
pretty grand gesture on the part of the President of the United 
States, I think, in my opinion, it is a pretty grand gesture on 
his part to say no to me, to say no to those mothers in 
Richmond and that I met over the weekend in Riverside, to say 
no to millions of people who support him, voted for him, 
cherish him, love him, and have protected him, for him to say 
no to us because he wants to say yes to you, because he wants 
to reach an agreement with you. I think that is a pretty grand 
gesture, especially when I have seen the kind of disdain that 
some Members on the other side of the aisle have shown for him. 
I think it is a pretty grand gesture.
    And my point is I, like the President of the United States, 
want to work with you. I respect that you are the majority 
party in the House of Representatives and therefore get to 
dictate how it is things proceed. But I beseech you that there 
has got to be a way that we find some commonality.
    And I want you, Mr. Secretary, to understand that I want to 
be supportive. When you guys talk about criminals, criminals, 
criminals, you think we like criminals? I want to find a 
seamless process in which you commit a violation of the law and 
if you are an immigrant in this country, you pay the price here 
and you are seamlessly deported from the United States of 
America. I don't want them here either.
    But the only way we are going to reach that is if we fix 
the system completely, because, unfortunately, when you talk 
about felonies, that they are felons, it is a felony to reenter 
the United States of America once you have been deported. But 
who on the other side would not reenter this country to regain 
your relationship and your love with your wife and your 
children? Which one of you would not reenter illegally this 
country? Every one of us would.
    I've had dinner, I've sat down with Members of the other 
side. I know how much you love your wives and your children. I 
know how much you cherish your families. I know what you would 
do and I think you know what I would do. So let's simply find a 
way where we can find law and order and some compassion.
    And lastly I just want to say this. Mr. Secretary, I'm so 
happy this is the first hearing. I hope to have many, many more 
in which I actually ask you questions. But you know what, Mr. 
Secretary, look, maybe you don't need my advice, but I know you 
are going to be just fine as Secretary because you come from a 
great family tradition. And I know one day you're going to see 
your grandpa again and he is going to be very proud of when you 
were Secretary of Homeland Security. Thank you so much for 
being with us this afternoon and this morning.
    Mr. Goodlatte. The Chair thanks the gentleman.
    Recognize the gentleman from Utah, Mr. Chaffetz, for 5 
minutes.
    Mr. Chaffetz. I thank the Chairman.
    And, Mr. Secretary, thank you for being here. Have you had 
an opportunity to meet with the president of the ICE officers 
union?
    Secretary Johnson. No, I have not.
    Mr. Chaffetz. Will you meet with him? Will you meet with 
him?
    Secretary Johnson. I would like to. I would like to meet 
with the president of that union. I would like to meet with the 
president of AFGE.
    Mr. Chaffetz. Okay.
    Secretary Johnson. I would like to meet with other labor 
leaders.
    Mr. Chaffetz. I hope you have a chance sooner rather than 
later to meet with the ICE officers, and particularly their 
labor union.
    Secretary Johnson. I just committed to do that on TV.
    Mr. Chaffetz. I know. I appreciate it. That's why I said I 
do appreciate it.
    Operational control of the border. I don't think that's 
unreasonable to ask. What's your understanding, what percentage 
of the border do we actually have operational control of?
    Secretary Johnson. We don't exactly compute it that way. We 
have got a fairly sophisticated analysis that demonstrates on 
the southwest border, for example, where we have enough assets 
that we feel that we have got pretty good situational 
awareness, where in the more remote areas we have other assets, 
surveillance assets, but we don't have as much boots on the 
ground, we feel like we've got a----
    Mr. Chaffetz. I'm sorry. Time is so short here. You 
evidently wrote a letter to Senator Durbin. You said, ``I do 
not believe that deportation quotas or numeric goals are a good 
idea.'' Can you explain to me why you don't think numeric goals 
are a good idea?
    Secretary Johnson. Because I think that the analysis into 
what constitutes a secure border requires a more sophisticated 
approach. It's not just the number of attempted crossings but 
who's crossing. Where are they from? Are they drug dealers? Are 
they recividists? Are they criminals? I think there's a more 
sophisticated analysis that goes into what constitutes border 
security.
    Mr. Chaffetz. So where they're from and if they're a 
criminal or not----
    Secretary Johnson. And the chief of the Border Patrol 
agrees with me.
    Mr. Chaffetz. You say the Border Patrol agrees with you?
    Secretary Johnson. Yes.
    Mr. Chaffetz. I just don't understand. We all try to look 
at the same set of metrics. You're saying that metrics aren't 
necessarily a good idea, and it depends their intent on 
crossing the border as to whether or not to actually have 
operational control. Explain that to me a little bit more. I 
don't understand that. If you're saying we have to look at 
their intent, where they're from, if they're criminals. So it's 
okay if they don't have bad intent, but it's not good if they 
have evil intent?
    Secretary Johnson. I believe metrics are very important, 
but not just one metric. I don't believe that it is as simple 
as one statistic like effectiveness rate. I think that there is 
more that should go into what constitutes a secure border, and 
we have that analysis----
    Mr. Chaffetz. Is that something you can share with us?
    Secretary Johnson [continuing]. And I think it needs 
further refinement.
    Mr. Chaffetz. Is that something you can share with us? I'd 
love to see what your version of that is, but I haven't seen 
that.
    Secretary Johnson. I've had that conversation with other 
Members of the Congress. I'm happy to have it with you, sir.
    Mr. Chaffetz. Thank you. And if there was some sort of 
document there, I would sincerely appreciate it.
    Biometrics. You said, quote, and this is during your Senate 
confirmation, ``Biometric exit is in my judgment the gold 
standard. It's a place that we eventually ought to get to,'' 
end quote. How do we get there? And I want to add another part 
of this because I think they do go hand in glove. You said that 
it is your goal, I believe in response to Mr. King, that if you 
had enough resources, then you would be able to detain and 
deport more people, correct? But you haven't asked for more 
resources, have you? In fact, your request for the number of 
beds is going down, isn't it?
    Secretary Johnson. Well, in response to the question about 
biometric exit, I do believe that it is definitely a worthwhile 
goal, and it requires resources from Congress. We are operating 
and living in fiscally constrained times with huge national 
debt and a huge deficit. So we ask the Congress for resources. 
It's your prerogative to give us more. It's your prerogative to 
give us less.
    Mr. Chaffetz. Do you have a plan to fully implement the 
entry-exit program? Do you have a plan to do that?
    Secretary Johnson. I believe we do. I believe we have a 
plan to get to biometric exit, but it requires resources from 
Congress. It requires resources from you.
    Mr. Chaffetz. And the resources that you talk about, if 
you're going to get tougher in this situation, people are here 
illegally, you said if we gave you the resources you'd make 
that happen. But you're not asking for more resources, are you?
    Secretary Johnson. I have to prioritize where I think it's 
important. I believe it's important that we add resources to 
the southwest border, which is why we've asked for additional 
boots on the ground and we've asked for additional surveillance 
resources.
    Mr. Chaffetz. But then why did you ask for less beds? But 
you've asked for less beds. Why less beds?
    Secretary Johnson. Because the budget realities, we must 
prioritize.
    Mr. Chaffetz. Mr. Chairman, that is, with all due respect, 
a nonsensical answer. It's just circular in its nature. You're 
asking for less resources, but you're saying if you had more 
resources you'd do your job better. And yet you're asking for 
less. And that doesn't add up, Mr. Chairman. It's something we 
further need to explore.
    Secretary Johnson. May I answer? May I be allowed to 
answer?
    Mr. Goodlatte. The Secretary definitely can answer the 
question.
    Secretary Johnson. Thank you. We make a budget submission 
every year, as you know, Congressman. We're given a top line to 
work with. We're given budget reality to work with. And we have 
to make hard choices. And in my view, in my judgment, the 
priorities must be border security, without a doubt, 
particularly southwest border and some of the challenges we 
face there. We have asked for additional surveillance 
technology there. We have got to deal with cybersecurity. We 
have got to be mindful of the counterterrorism threat. We have 
got to provide grants for urban areas that face terrorist 
threats. We have got priorities.
    Now, I would like to be able to fund every single thing 
that I believe is a priority, but Congress is only going to 
give me so much money, and so I've got to make hard choices. 
I'd like to have biometric exit. I think it would add to our 
homeland security. But over the years we have had to make some 
hard choices about prioritization. And so it's a goal. 
Unfortunately, we haven't been able to fund it as quickly as we 
would like.
    Mr. Chaffetz. And, Mr. Chairman, I would just say when we 
have to release criminal aliens because there aren't enough 
beds, they've made a conscious decision to have less beds, and 
that's what I have a problem with. Yield back.
    Mr. Goodlatte. The Chair thanks the gentleman.
    And, Mr. Secretary, biometric entry-exit is not a goal, 
it's the law. And we would like to see expeditious efforts 
made, and we actually think the cost of that is coming down 
with the development of new technology.
    The Chair recognizes the gentleman from Georgia, Mr. 
Johnson, for 5 minutes for his questions.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman.
    Director Johnson, so what you're saying basically is you 
have to prioritize, and from the standpoint of your priorities, 
you believe that border security trumps the number of beds that 
the Congress would want versus what you've asked for in your 
budget. Is that correct?
    Secretary Johnson. Not necessarily, sir. Detention of those 
who are dangerous is part of border security. It's part of 
homeland security, part of national security, part of border 
security. Every year we make an estimate of what we think we 
will need in terms of detention space. It's the Congress' 
prerogative to agree or disagree with that. But homeland 
security, border security, that's my mission, so that's my 
priority. Detention of those who are dangerous is very much 
part of that.
    Mr. Johnson of Georgia. Okay. Let me ask the question this 
way. I understand that we spend $2 billion per year on 
immigration detention alone. The House Appropriations Committee 
is currently considering an appropriations bill for DHS that 
requires the Department to maintain 34,000 beds, while the 
President's budget only requested roughly 30,000 beds. Do you 
really need these extra beds that the House Appropriations 
Committee says that they want to give to your Department?
    Secretary Johnson. Well, our request, as I recall it, was 
for bed space for about 31,000 or so. Obviously that number 
could change based on current circumstances. So we're seeing a 
rise in illegal migration in south Texas, for example, which 
may require additional bed space. So it's a number that can 
fluctuate up and down. It's not necessarily a flatline number.
    Mr. Johnson of Georgia. You asked for roughly 31,000 and 
they now want to give you more than that, 3-plus-thousand more 
beds. How much does that cost?
    Secretary Johnson. I don't have the exact number.
    Mr. Johnson of Georgia. All right. Well, let me ask you 
this. The 2011 ICE Performance-Based Detention Standards update 
existing ICE standards to address gaps in previous standards 
with regards to health and safety conditions. ICE facilities 
include private prisons as well as ICE-owned facilities, and 
they operate under widely varying detention standards.
    According to reports from ICE, almost half of the average 
detainee population is not covered by the most recent PBNDS 
standards. What is DHS' timeline for ensuring that all 
facilities that hold detainees operate under the most recent 
standards, and why do we continue to hold detainees in 
facilities that cannot commit to complying with the most recent 
standards?
    Secretary Johnson. I'd like to take that for the record and 
get back to you in writing, if I could. Sitting here, I don't 
know the answer to your question.<greek-l>waiting on response, 
sent 6/11/14, due 7/9/14 deg.
    Mr. Johnson of Georgia. All right. Detaining an immigrant 
costs over $150 a day. Of course immigration detention is 
purely civil. That is, we're only detaining individuals in a 
civil proceeding to make sure that they show up for their court 
date. That's the reason why we're detaining them, not as 
criminal punishment. I understand that there are alternatives 
to detention such as ankle monitors or checking in by phone, 
which costs anywhere from 70 cents to $17 a day. What plan does 
your Department have for expanding the use of these 
alternatives to detention?
    Secretary Johnson. The Alternatives to Detention program 
that we have, and I know that it's part of our budget 
submission for this year, is in my judgment an important 
program and a reasonably effective program. I'm sure we could 
always do better, but I think we have become pretty 
sophisticated in terms of alternatives to detention and the 
conditions under which we release people to ensure their 
return. So I think Alternatives to Detention in general is an 
important program. Could we do better? I suspect we can, and so 
we have to continue to try to make improvements in that area.
    Mr. Johnson of Georgia. Thank you. With that I'll yield the 
balance of my time back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from South Carolina, Mr. Gowdy, for 5 
minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Secretary, you had a very distinguished career as an 
attorney, so I want to ask you some legal questions. What is 
the difference between prosecutorial discretion and the 
wholesale failure to enforce a category of law?
    Secretary Johnson. Prosecutorial discretion is a 
prioritization. Now, somebody who is a low priority is not 
necessarily therefore beyond the reach of the law. They are a 
low priority, but they don't have any sort of status that says 
you hereby have amnesty.
    Mr. Gowdy. Are there limits on the doctrine of 
prosecutorial discretion?
    Secretary Johnson. I'm sorry?
    Mr. Gowdy. Are there limits on the doctrine of 
prosecutorial discretion?
    Secretary Johnson. DACA, as I understand it, is an act of 
prosecutorial discretion on an individual basis?
    Mr. Gowdy. No, no, no. Are there limits on the theory of 
prosecutorial discretion? Are there any categories of law that 
the chief executive really actually has to enforce and this 
time we really mean it?
    Secretary Johnson. As a lawyer I will tell you I believe 
there are. I think that there comes a point where something 
looks like a wholesale abandonment of the enforcement of the 
law versus prosecutorial discretion. So I would agree with that 
assertion and that proposition.
    Mr. Gowdy. Well, there are at least three different 
categories of law. Law can forbid conduct, like the possession 
of child pornography. Law can require conduct, like 
registration with Selective Service. And law can even tell one 
branch you have to do something like sentence within these 
parameters. Does the doctrine of prosecutorial discretion apply 
to all three of those categories of law?
    Secretary Johnson. DACA is an individual assessment of 
people who are eligible for DACA treatment, and then they have 
to go through a process of background check and so forth.
    Mr. Gowdy. I'm not just asking about DACA. You were a 
prosecutor. Our Attorney General has concluded he doesn't like 
mandatory minimum, so they're no longer going to inform the 
grand jury or the sentencing court what the drug amounts are. 
I'm not talking about DACA specifically. I'm trying to 
determine whether there are any limits to this theory called 
prosecutorial discretion.
    Secretary Johnson. I believe there are.
    Mr. Gowdy. Give me a for instance. Give me a category of 
law where you can't rationalize due to a lack of resources your 
failure to enforce a law.
    Secretary Johnson. Like I said, sitting here I'm not sure I 
can answer specifically your question in hypothetical terms, 
but I do believe that there comes a point when something 
amounts to a wholesale abandonment to enforce a duly enacted 
constitutional law that is beyond simple prosecutorial 
discretion. I'm agreeing with you in principle.
    Mr. Gowdy. You mentioned in response to one of my 
colleagues' questions a lack of resources and a need to 
prioritize.
    Secretary Johnson. Right.
    Mr. Gowdy. Can the legislative branch prioritize for you 
what we think your enforcement mechanisms ought to be or the 
priorities of your Department? Does it only come from the 
executive branch or can the legislative branch say, we really 
want you to detain this category of alien and we really mean 
it?
    Secretary Johnson. I think that's a good question. I think 
that there is a role for the legislative branch in making 
national priorities in how we enforce and prioritize the law. 
So, for example, if I may, Congress can ratchet up criminal 
penalties for certain things. That's an act of prioritization. 
I think that's an act of prioritizing, telling the executive 
branch where we want your priorities to be, and so there are 
enhanced penalties here.
    Mr. Gowdy. But, Mr. Secretary, that enhanced penalty is 
meaningless if there's no prosecution. You would agree with me 
there. We can raise the statutory maximum on all crimes. If you 
mean to tell me the executive branch has the unfettered 
discretion not to enforce a category of law, what difference 
does it make what the statutory maximum is? Nobody's ever going 
to be prosecuted.
    Secretary Johnson. That's not what I said.
    Mr. Gowdy. No, but you cited something the legislative 
branch can do, which is raise the statutory maximum.
    Secretary Johnson. Right.
    Mr. Gowdy. What I'm trying to get at is what can the 
legislative branch do when we want--and I'm not talking about 
immigration right now, I'm talking about any category of law--
if we really want the law enforced? I mean, this time we really 
mean it, Mr. President. We want you to enforce the law. What 
are our remedies?
    Secretary Johnson. I think that the legislative branch in 
general, whether it's the enforcement of immigration laws, the 
enforcement of criminal laws, or how we conduct 
counterterrorism operations, needs to be careful not to intrude 
into the discretion that the executive branch should normally 
have. You cannot, with all respect, micromanage certain 
functions that the executive is charged with carrying that out. 
I know from experience, whether as an AUSA or as the General 
Counsel of the Department of Defense responsible for signing 
off on the legality of specific military operations, that the 
legislative branch can and should and has the prerogative to 
set the broad parameters for national policy, and the executive 
should be given a certain amount of discretion, based on 
existing circumstances, to implement and enforce those laws. 
And there is a line between those two that I think is probably 
a little difficult to articulate, but I believe both branches 
have a role in that process.
    Mr. Gowdy. I'm out of time. But, Mr. Secretary, I will say 
this in conclusion. Our politics may differ. I don't have any 
idea, I don't know you well enough to know. But you're a former 
prosecutor, and there are other former prosecutors on this 
Committee, and the beauty of this country is even if our 
politics differ, we still respect the rule of law.
    And we are playing with the foundation of this Republic 
when we decide selectively which laws we're going to enforce 
due to political expediency. That transcends politics, and it 
begins to impact the foundation of this Republic. And I would 
urge you to help me find where that line is between 
prosecutorial discretion and just deciding you don't like to 
enforce a law.
    Mr. Goodlatte. The Chair thanks the gentleman, and 
recognizes the gentlewoman from California, Ms. Chu, for 5 
minutes.
    Ms. Chu. Yes, Congresswoman Lofgren?
    Ms. Lofgren. Thank you for yielding.
    I just wanted to point out that, in fact, Congress has 
identified the priority in the appropriations language for 
2013. We prioritized the removal of criminal aliens.
    And I thank the gentlelady for yielding and yield back.
    Ms. Chu. Thank you.
    And thank you, Secretary Johnson, for meeting with the 
Congressional Asian Pacific American Caucus. We had a very 
fruitful dialogue on the deportation policies, and I appreciate 
that.
    I would like to ask questions about removals without due 
process. And I know that those on the other side of the aisle 
are saying that there's too much prosecutorial discretion, but 
actually I believe that the opposite is true, and that is 
immigration agents now deport most people without ever bringing 
them before an immigration judge. In 2013, more than 70 percent 
of all people that ICE deported were subject to summary removal 
procedures which bypassed immigration courts entirely and 
lacked fundamental due process. For these hundreds of thousands 
of individuals, immigration agents are the jury and the judge. 
And, in fact, deportation decisions are made so quickly that 
there's no time to see if a person merits discretion or needs 
protection.
    Take the case of Gerardo Hernandez Contreras from San Diego 
who entered the U.S. when he was 15 years old and later married 
a U.S. citizen and had two U.S. citizen children. In 2012, he 
was driving to pick up ice cream for his kids when he was 
pulled over by the San Diego Police Department for talking to 
his wife on his cell phone while driving. So the immigration 
officials were called to the scene, and just 1 day later he was 
deported to Mexico, a country that he had not lived in for a 
decade.
    He appears to be a prime candidate for prosecutorial 
discretion. He had no criminal history, had lived in the 
country for over a decade, had U.S. Citizen family. But instead 
he never had the opportunity to present this case to a judge. 
He was pressured by Immigration to sign a voluntary return form 
and was not informed of the consequences of doing so. By 
signing the form, he waived the right to a hearing and 
consented to removal from the U.S. and now faces the 10-year 
ban before reentering. Because the Morton memo does not apply 
to Border Patrol, they are not required to screen individuals 
prior to deportation to determine if they are eligible for 
discretion, and so he slipped through the cracks.
    So, Mr. Secretary, it's of great concern to me that those 
like Mr. Hernandez Contreras who lives within 100 miles of the 
border and are apprehended by Border Patrol are subject to less 
due process than those apprehended by ICE in the interior where 
ICE is required to screen for prosecutorial discretion. And do 
you believe that the Department's enforcement priorities should 
require the Border Patrol to at least screen individuals for 
prosecutorial discretion?
    Secretary Johnson. Well, I can't comment on the specific 
case, but in general I believe that in the process of 
prioritization CBP officials should evaluate whether a case is 
a priority 1, 2 or 3 all along the way. As I commented earlier, 
however, I think that there are special considerations at the 
border, that you can't ask a Border Patrol agent when he's 
watching somebody crossing the Rio Grande to engage in that 
sort of balancing and discretion. So it's normally something 
that's done in the interior or once somebody has crossed into 
this country illegally.
    I do think that we should, and this is one of the things 
I'm seeking to do, I think we should do a better job of 
providing our people with clearer guidance about what our 
priorities should be and spending the time to educate and train 
the workforce on those guidelines so that they understand them, 
they understand what's expected of them, and they are truly 
making the effort to prioritize.
    I don't think we've spent--when I say ``we,'' I mean the 
leadership of my Department--has spent enough time talking to 
the workforce as I've tried to do over the last several weeks, 
as I've conducted my review, and I've spoken to ERO leadership, 
as well as a number of people in the workforce. And Congressman 
Forbes cited an example earlier in Fairfax, Virginia, where I 
had a session with a number of people on the front lines in the 
workforce enforcing our immigration laws.
    So I think an important element of the answer to your 
question is better communication between leadership and the 
front lines and more effective and clearer guidance.
    Ms. Chu. Thank you. I yield back.
    Mr. Goodlatte. The Chair thanks the gentlewoman.
    Recognize the gentleman from Texas, Mr. Farenthold, for 5 
minutes.
    Mr. Farenthold. Thank you, Mr. Chairman.
    Secretary Johnson, I serve on the Transportation Committee, 
so I also want to talk to you for a second about the TSA before 
I get into a more pressing issue. Currently the passenger fee 
associated for TSA screening is $2.50 per enplanement with a 
maximum of $5 each way. The Bipartisan Budget Act of 2013 
increased that from $2.50 to $5.60 per one way, regardless of 
the number of enplanements.
    Now, do I understand correctly that since 2001 your agency 
has implemented the underlying law so with the $2.50 you maxed 
out at $10 each way? So I guess it's $2.50 for enplanement with 
a maximum of $5 each way or $10 for a round trip.
    Secretary Johnson. I think that's right. Yes.
    Mr. Farenthold. Right. So my office is hearing some rumors 
that there may be a different way you interpret what we're 
doing. But given this precedent, it seems the correct thing to 
do is to look at the $5.50 will max out at $11.20 per round 
trip. Is that what you all are planning so we can put some of 
these rumors to rest?
    Secretary Johnson. Well, I don't want to get this wrong. I 
know I've looked at this issue. I would need to refresh my 
recollection on how we propose that the fee be calculated, 
because I want to be sure I get this right, Congressman, and 
I'm happy to get back to you on that.<greek-l>waiting on 
response, sent 6/11/14, due 7/9/14 deg.
    I do know that one way or another we need to fund our 
activities.
    Mr. Farenthold. Absolutely. It's a billion dollar expense 
to the flying public, but it falls I think under the category 
of a user fee rather than a tax. If you don't fly, you don't 
pay it.
    Secretary Johnson. One way or another we need to pay for 
the executive branch's activity.
    Mr. Farenthold. Well, if you could just let me know just to 
make sure that there's no intent to go beyond what I think 
Congress intended was $11.20 per round trip max on that, kind 
of follow the same implementation.
    But I want to get to something more important. You 
testified early on in your testimony, and there were a couple 
of questions about the issue we had with the increasing number 
of minor children that are crossing the border. In fact, there 
are two facilities in the district that I represent that house 
those children, one in Driscoll, Texas, and one literally four 
blocks from my residence. And I've toured one of those 
facilities and spoken to the people, and they say they can't 
deal with the children fast enough, there are so many coming 
in. You mentioned that you went to a facility in McAllen that 
was overcrowded with children.
    And your suggestion in answer to one of the questions of 
how we fix this is an ad campaign saying it's dangerous to 
cross the border illegally. And I'm concerned that that isn't 
enough. I think in a well-intentioned manner we have created an 
incentive for parents who are in this country, lawfully or 
unlawfully, to hire a coyote to bring their children across, 
let them get captured, and we deliver them to the parents at 
over a billion dollars, I think, last year expense. I think the 
numbers are--they're thousands. And I don't want to get the 
number wrong either. Do you think an advertising campaign 
really is going to be enough, or are there some policy changes 
that we need to make to solve this?
    Secretary Johnson. No, clearly not by itself, sir, and I 
don't think I really got a chance to finish my answer to the 
question. Public messaging directly to the parents of these 
kids is an important aspect of it, but it's not the only answer 
clearly. I think that we have to do a better job of attacking 
the network, and I'm reviewing statistics recently----
    Mr. Farenthold. Well, my question, just real quickly, my 
fear is that as drug cartels who run a lot of these human 
smuggling operations are losing revenue, whether it's increased 
enforcement or legalization of marijuana in parts of this 
country, they're losing revenue, my fear is that these coyotes 
turn more into traffickers and either hold out for more money 
once the child is across the border or, worse yet, take those 
children into sex slavery and some form of human trafficking.
    I want to give you an opportunity to fully outline what you 
propose because I really am concerned we are unintentionally 
incentivizing very, very dangerous conduct that has already 
cost the life of at least one child I've seen and will cost the 
lives of more.
    Secretary Johnson. Going after the network is important, 
and we are increasing prosecutions of smugglers. I think 
smuggling organizations, as you've pointed out, are the key to 
this. Nobody freelances across the southwest border that I've 
seen. They're all paying smuggling organizations to get them up 
the east coast of Mexico into South Texas and then into the 
interior of our country, $3,000 or $4,000 a head, or whatever 
the amount is.
    So I think an important part of this is increased 
prosecutions of smuggling organizations, those engaged in this 
activity, many of whom can be found in the United States. And 
so I think that's part of it, and I think that there are other 
things that we need to consider that I'm considering this 
afternoon when I go back to meet with my team on UACs because 
this is a problem that we have to address for a number of 
reasons, including the humanitarian reasons.
    Mr. Farenthold. Any way I can help, please let me know. I 
see my time has expired. I would like to spend some more time 
with you talking about it.
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair recognizes the gentleman from Florida, Mr. 
Deutch, for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman.
    Secretary Johnson, thank you for being with us today.
    As you're aware, the House Appropriations Committee just 
released the text of the Homeland Security appropriations bill, 
which again contains the detention bed mandate, something that 
there's been a lot of talk of here today. And it says ``that 
funding made available under this heading shall maintain a 
level of not less than 34,000 detention beds through September 
30, 2015.'' What's the purpose of detention, Secretary Johnson?
    Secretary Johnson. Public safety.
    Mr. Deutch. And the purpose is, as I understand it, to 
ensure that compliance with immigration court proceedings is 
upheld. Isn't that correct?
    Secretary Johnson. Those with immigration court 
proceedings, some are released pursuant to conditions, if we 
don't think they're a risk of flight and they're not public 
safety; but those who are considered to be a risk to public 
safety should be detained.
    Mr. Deutch. That's not what I'm asking. The purpose for 
detention, first and foremost, is to ensure that these 
undocumented immigrants wind up appearing in court. Isn't that 
why we have it? Isn't that the basis for the system?
    Secretary Johnson. That is one of the purposes, yes. We 
also need to pay attention to public safety, too.
    Mr. Deutch. I understand that, and paying attention to 
public safety is exactly what law enforcement does. Are you 
aware of any law enforcement agency in this country, any other 
law enforcement agency that's required to hold a certain number 
of people every day?
    Secretary Johnson. No.
    Mr. Deutch. So why do we do it?
    Secretary Johnson. The statutory requirement is beds, not 
people. A lot of people think it's people, but it says beds.
    Mr. Deutch. Right. In fact, one of my colleagues on the 
Appropriations Committee made the point that the detention bed 
mandate, not only is it people, but it's meant to be people 
because it's meant to be a deterrent, because apparently he 
believes, some of my colleagues believe, that it is Congress 
rather than law enforcement that should enforce the law. How do 
you feel about that?
    Secretary Johnson. Well, as the exchange I had with 
Congressman Gowdy reflected a few minutes ago, I think that a 
core function of the executive branch is to enforce the law, 
which includes prosecutorial discretion. That's something that 
I engaged in 25 years ago as a Federal prosecutor, and anybody 
else in this room who's been a prosecutor has done the same 
thing.
    Mr. Deutch. And every law enforcement agency in America has 
the ability to make their own decisions, to exercise their 
discretion, except in this case where Congress has stepped in 
and has insisted, the interpretation of my colleagues, some of 
my colleagues here, is not yours, though it should be, but the 
interpretation here is that it means people. And the cost then 
is $2 billion a year, $2 billion a year that we spend, at a 
cost of $160 per detained person per day, when there are 
alternatives that cost anywhere from 17 cents to $18 per day. 
The average cost for alternatives to detention is $5.94.
    In this case, why shouldn't we let immigration officials do 
their job the same way we let law enforcement exercise 
discretion in every other place in our country?
    Secretary Johnson. Well, look, don't miss understand me, 
please. There are lots of people in the removal system who 
should be detained, who should not be at liberty. We make 
estimates every year of what we think our detention bed space 
should be. Congress comes to their own number, and they give us 
their own number. And that's the back and forth we have every 
year.
    Mr. Deutch. Right. But, Secretary Johnson, ICE detained 
nearly 500,000 people in 2012, it was a record number of 
detention, when there are alternatives. And so with these 
detentions and the interpretation that Congress has put forth, 
there is no discretion that can be utilized.
    So my question to you is, instead of having this back and 
forth over how this should be interpreted, why do we have this 
requirement, this detention bed mandate, in law to begin with, 
why does it come through the appropriations process instead of 
through a debate about policy that should take place in this 
Committee, and shouldn't we through these alternatives to 
detention be working to save taxpayers' money while at the same 
time making sure that immigration officials can do their job? 
Why are we mandating this?
    Secretary Johnson. Well, first of all, I think that's a 
discussion you should have with your colleagues.
    Mr. Deutch. Secretary Johnson, I'm asking you. I don't 
believe we should. And I have had this discussion. And a lot of 
my colleagues can't understand why it is that when we spend so 
much of our time here talking about taxpayers' dollars and 
making decisions wisely and spending decisions wisely, that in 
this case we have a policy that benefits a certain group that 
costs $2 billion a year and that it's a policy that we impose 
that we don't impose on any other area of law enforcement. It 
tears families apart. There are less expensive ways to do it. I 
don't believe we should have it at all. And I'm asking you 
whether you agree with me.
    Secretary Johnson. Look, I think that there are a certain 
number of people in the system who should be detained.
    Mr. Deutch. We agree. We absolutely agree with that, Mr. 
Secretary. I'm talking about all of the others that could be 
released on a whole host of alternatives to detention which 
would save taxpayers' money, that would not put communities at 
risk, that would permit these people to move, to go back to 
their families, still ensuring that they're going to show up in 
court, which is what the detention system is meant for.
    Secretary Johnson. If I could just be permitted to finish 
my sentence?
    Mr. Deutch. Please.
    Secretary Johnson. There are some people who can and should 
be detained. Congress has got to allocate resources to enable 
us to do that.
    I also believe that there are instances where it is not 
necessary, given the cost to the taxpayer, to detain people who 
are in the system, and therefore alternatives to detention is 
something that can and should be looked at and funded by this 
Congress.
    Now, arriving at the right balance between what we devote 
to those who should be detained and those who can be released 
as an alternative to detention is a difficult job that we have 
to continually evaluate to achieve that balance that ensures 
public safety and maximizes the efficient use of taxpayer 
dollars. So that's what I am interested in doing and working 
with the Congress to try to achieve.
    Mr. Goodlatte. Time of the gentleman has expired.
    Mr. Deutch. Unfortunately, Mr. Secretary, we're insisting 
on a mandate rather than engaging in that discussion.
    Mr. Goodlatte. Time of the gentleman has expired by over 2 
minutes. And I would only add to the Secretary's comment that 
right now there are over 860,000 such people who are under 
deportation orders and who are not detained and have not left 
the United States.
    The gentleman from North Carolina, Mr. Holding, is 
recognized for 5 minutes.
    Mr. Holding. Mr. Secretary, in the Supreme Court's decision 
of Kendall v. The United States, the court stated that to 
contend that the obligation imposed on the President to see the 
laws faithfully executed implies a power to forbid their 
execution is a novel construction of the Constitution and 
entirely inadmissible. Would you agree with that?
    Secretary Johnson. Without knowing who wrote it, I agree 
with that, yes, sir.
    Mr. Holding. Good. You think the DHS has been living up to 
this Supreme Court decision?
    Secretary Johnson. I believe that's my obligation as the 
head of the agency, and that's what I seek to do.
    Mr. Holding. Good.
    Now, in recent press reports I learned that DEA 
Administrator Leonhart was called onto the carpet by the 
Attorney General for apparently her desire or expression of 
wanting to enforce drug laws in the United States as they're on 
the books, and particularly the marijuana laws. And I was 
surprised that the Attorney General, chief law enforcement 
officer, would have a problem with another law enforcement 
officer wanting to uphold the laws of the United States.
    So with that in mind, I was listening to your response to 
Mr. Nadler a little bit earlier today, and I was refreshed 
because he was asking you about the scanning of ship 
containers, and you said, well, that you had looked at it and 
it's a duly passed law, and being a duly passed law, that it is 
your job to enforce it. And you echo that with my question 
about Kendall v. The United States, that it's your job to 
enforce duly passed laws.
    So as you're doing the review in the Department for the 
President, to let the President know about enforcement 
priorities, if you were to do this review and come back and 
say, well, I've had various field hearings with the rank and 
file, the boots on the ground, I'm hearing from them. I've 
looked at the resources of the Department. I've looked at the 
challenges that we have. And in the interest of public safety, 
we have gang members coming across the border infiltrating our 
immigrant communities here, we have drug dealers coming across 
the border, we have child molesters, violent felons, we're 
picking them up, we're not able to detain them all. We have 
many tens of thousands that have been released, I've seen that. 
The deterrent effect of not enforcing the laws is terrible. We 
have now people lining up at the borders trying to get across 
the borders because they don't believe that we're enforcing the 
laws, I've seen that. And you tell the President, in talking to 
the rank and file, morale is down amongst our agents, they 
believe that their mission is to enforce the laws, they want to 
enforce the laws, they believe they're being inhibited from 
doing so.
    So you make this review, and you come to the President and 
say, the laws are duly passed, and I believe it's my duty to 
enforce the laws, and that's what I intend to do, do you think, 
based on your experience with the President, that he will say 
to you, well, you're hired to do a job, confirmed to do a job, 
go do your duty, do your best to uphold your oath and enforce 
the law? Do you think he would have a different response of, 
well, what you're telling me doesn't really match with what I 
believe that the policies of the United States ought to be, and 
they don't match with my politics, and they don't match with 
what I'd like the law to be? So do you think the President, 
like the Attorney General, would call you on the carpet and 
have some concerns if you were to come back with a review as I 
described?
    Secretary Johnson. That's a good question, and I appreciate 
the way you articulated it, because I've been not just the head 
of the department of our government, but the senior lawyer for 
the largest department of our government, and I've had 
occasions to make some really tough legal judgments over the 
first 4 years of this Administration in the conduct of our 
counterterrorism policies.
    Let me answer the question this way. I am appointed by this 
President. My political loyalty is to him. I have a higher 
obligation to the law, to the Constitution and the laws duly 
enacted by this Congress, and I will not participate in 
something that I do not believe squares with my legal 
obligations, which are higher than any other obligation, except 
perhaps the obligations I owe to God, to conduct myself in this 
office. That's the oath I took. The district judge who swore me 
in, administered the oath to me, said, you're about to take an 
oath, your oath is not to Homeland Security, your oath is to 
the Constitution. And I believe that. I believe that very 
passionately.
    So my highest obligation is to the law, and I think I have 
a pretty good understanding of the law as a lawyer, as someone 
who's been a government lawyer. And I conduct myself within the 
mainstream of legal interpretations of duly enacted laws by 
Congress and the Constitution. That is at least how I've sought 
to conduct myself in public office, and I hope to continue to 
do so.
    Mr. Holding. Thank you for your answer.
    Mr. Goodlatte. Thank you.
    Before I turn to the gentleman from Florida, let me 
announce to the Members and to you, Mr. Secretary, that a vote 
series has begun. That vote series includes five votes. And we 
have probably time to get the gentleman from Florida, Mr. 
Garcia, and the gentleman from Florida, Mr. DeSantis, in before 
we have to go for that vote series, but then that's going to 
take us at least 30 minutes.
    Mr. Secretary, what is your schedule? Are you able to 
return? Because we have several Members on both sides that want 
to ask questions.
    Secretary Johnson. I have appointments this afternoon, sir, 
but I am happy to stay as long as you need me.
    Mr. Goodlatte. We will make you as comfortable as possible, 
and we will return promptly after the vote series, but we will 
get two more out of the way before we go, and that will save 
you some of the time.
    So the Chair recognizes the gentleman from Florida, Mr. 
Garcia, for 5 minutes.
    Mr. Garcia. Thank you, Mr. Chairman.
    Mr. Secretary, good afternoon. Thank you for your service. 
And I want to thank you for your ongoing review, as well as 
your willingness to meet with the different caucuses who are 
trying to pass and move forward on comprehensive immigration 
reform.
    Mr. Secretary, we're coming on our second anniversary of 
the DACA program. Can you give a brief overview of how you 
think it's working.
    Secretary Johnson. I'm sorry, what's that?
    Mr. Garcia. Can you give a brief overview on how you think 
it's working, the DACA?
    Secretary Johnson. We have had something like 600,000 
people enroll so far. It's a large number of people. I think 
our Department has done a pretty good job of enrolling those 
people and administering this program. And we're reaching a 
stage where we're going down the road of renewal, and it's not 
a big revelation, it's not a big secret.
    And so I would anticipate that the DACA program will 
continue. I am interested in understanding the program better 
to see if there are ways that we can more effectively 
administer this program. But my general sense is that the 
program is working reasonably well.
    Mr. Garcia. Thank you. I recently met a young man in my 
district named Julio. Julio came to the United States from 
Honduras a month after his 16th birthday, after missing the 
DACA program by 1 month, just 1 month. After graduating from 
high school he worked construction, never thinking he'd be able 
to go to college. His parents didn't graduate high school. But 
he eventually was given the opportunity at a university in my 
area, Miami Dade College, and now Florida International 
University, where he has become a campus leader.
    Julio is an asset to our community, but when he finishes 
college he's sort of done, his ability. Don't you think that 
allowing him to stay would be in the spirit of the DACA 
program?
    Secretary Johnson. Is it within? Certainly there's a spirit 
of the DACA program that reflects the special nature of people 
who cross the border as children. I think in any program like 
that, that involves large numbers of people, you have to have 
cutoffs and deadlines and clear parameters. We can't have a 
case-by-case judgment made with respect to how we're going to 
administer this program for 600,000 people. So I think there 
needs to be clear guidelines, clear rules. But certainly the 
case you describe is within the spirit of what we're trying to 
achieve with the program.
    Mr. Garcia. Thank you.
    On another note, jurisdictions throughout the country have 
expressed frustration and skepticism through the Secure 
Communities program, including Miami-Dade County formally 
refusing detainer requests. As part of your review, are you 
looking into this area?
    Secretary Johnson. Yes, yes. I am very troubled by how this 
program is being administered and the reaction we're getting 
from a lot of governors and mayors, and I think we need to do a 
better job.
    Mr. Garcia. Mr. Secretary, again, thank you for your 
service. Thank you for your ongoing review.
    I'll yield back balance of my time.
    Mr. Goodlatte. Thank the gentleman.
    Recognize the gentleman from Florida, Mr. DeSantis, for 5 
minutes.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary.
    I was looking through this list of the 36,000 criminals who 
were released, and some of this stuff is really, really 
troubling when you look at serious, serious crimes--homicide, 
sexual assault, robbery, aggravated assault, domestic violence. 
I mean, do you agree just as a general rule that if somebody 
illegally enters the United States and they're committing 
crimes that endanger the life, liberty, or property of the 
American people, the response from our policy and our 
government should be that those individuals are sent back to 
where they came from, correct?
    Secretary Johnson. Yes, yes.
    Mr. DeSantis. Okay. And so I noticed in the response that 
you sent to the Committee that there were certain numbers of 
criminals who were enumerated as having been released because 
of binding legal precedent. So, for example, there were 10 
individuals released whose crimes were classified as homicide, 
willful kill, gun, and the reason according to the response was 
because you're only allowed to hold them for a certain amount 
of time. And I think in those situations it's because the 
parent country will not accept them back. Is that a fair guess 
as to why we would be releasing people who were out there 
mowing people down with a firearm?
    Secretary Johnson. I know in many cases a person is 
released on conditions because we do not think we have the 
legal authority to continue to hold them.
    Mr. DeSantis. And you can't deport them? Is that the nub? 
I'm just trying to figure out----
    Secretary Johnson. That could be one of the reasons, but I 
hesitate to give a broad categorization of 36,000 different----
    Mr. DeSantis. But are there certain instances where there 
are violent criminals who the host countries have not allowed 
us to return them? Has that, in fact, happened?
    Secretary Johnson. That is probably the case.
    Mr. DeSantis. Okay. So my question to you is, have you 
notified the State Department that this is the case, because 
there's a statute, 8 U.S.C. 1253 delta, which basically says 
that upon notification the Secretary of State is supposed to 
order the consular offices in those foreign countries to 
discontinue granting visas until those countries are willing to 
accept back their foreign nationals.
    So have you notified the Secretary of State that this has 
happened? And if not, why not? And if not, will you do so in 
the future?
    Secretary Johnson. I'd have to check. I'd have to check.
    Mr. DeSantis. Okay. If you could do that that would be 
helpful because the statute imposes a duty on the Secretary of 
State. I think we'd maybe get some headway if we just were to 
comply with the laws.
    One of the things I saw, there were over 15,000 convictions 
for DUI, and you see reports where there are illegal immigrants 
driving drunk and killing people. Yet, I was alarmed when I saw 
an anonymous ICE official state that two convictions for DUI 
simply aren't enough to warrant detention and removal. This is 
putting the American people's lives in jeopardy. It's a very 
serious offense.
    Now, Chairman Smith wrote to ICE before you were DHS 
Secretary asking them to launch removal proceedings against 
illegal immigrants with prior convictions for drunk driving. So 
my question for you--and Secretary Napolitano I don't think 
responded affirmatively--will you honor former Chairman Smith's 
request and protect innocent American lives by detaining these 
individuals who have these multiple DUI convictions?
    Secretary Johnson. Well, I hesitate to give a categorical 
response to individual cases without knowing the circumstances 
of the individual cases. In general, I believe that someone who 
represents a threat to public safety, who is removable, should 
be detained and removed.
    Mr. DeSantis. And that would include someone, you would say 
multiple convictions for DUI or repeat performer, that that 
person poses a threat to public safety?
    Secretary Johnson. I generally regard a DUI as a 
significant misdemeanor.
    Mr. DeSantis. A question about U.S. citizens negatively 
affected by some of the Administration's policies. There was an 
article in The New York Times recently about the DACA program, 
and basically what they said was the Department had to devote 
so many resources to doing the DACA that these U.S. citizens 
are now seeing their wait times go if they want to bring in a 
foreign national who's a spouse or family member.
    So my question to you is, do you find it troubling that 
legal immigrants and U.S. citizens who have simply been playing 
by the rules are suffering due to the Administration's desire 
to grant these benefits, which we can both agree were not 
statutorily mandated? This is administrative discretion, as you 
said. Does it bother you that U.S. Citizens are getting the 
short end of the stick in some instances?
    Secretary Johnson. My understanding is that that was a 
temporary phenomenon that abated after a period of time, and my 
understanding is that that is not the case now.
    Mr. DeSantis. So you don't think that that was good that 
that happened? You agree that there's a problem?
    Secretary Johnson. I agree that those who are lawfully in 
this country who are seeking citizenship should not have to 
wait an unduly long period of time to obtain that. Yes.
    Mr. DeSantis. Very well. I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman.
    The Committee will stand in recess, and we will resume 
immediately following the series of votes.
    [Recess.]
    Mr. Goodlatte. The Committee will reconvene.
    I want to again express my thanks to Secretary Johnson for 
his forbearance in giving us as much time as he has today.
    We will turn now to the gentleman from Pennsylvania, Mr. 
Marino, who is recognized for 5 minutes.
    Mr. Marino. Thank you, Chairman.
    Welcome, Secretary.
    My notes aren't with me; so, I am going to do the best that 
I can as far as asking you some questions.
    You made--and I apologize. You were at a press conference 
or you were at an event that you made a comment concerning that 
people here in this country--and I don't know if you referred 
to it that illegals here deserve to become citizens.
    Do you recall that?
    Secretary Johnson. Say that again. I am sorry.
    Mr. Marino. That the illegals here--now, I am not sure if 
you used the word ``illegals,'' but the people who are here 
undocumented deserve to become citizens because a lot of 
children grew up here.
    Do you recall that statement?
    Secretary Johnson. I don't think that's what I said. No. 
No.
    Mr. Marino. It was in the media, and I take with a pound of 
salt what I read in the media.
    So my question is, though: What type of illegals that are 
here--and I don't mean--I don't want you to do a broad 
category--should go back? Could you give me an example of 
people that we do not--that should not be here if they are here 
illegally.
    Secretary Johnson. Well, under our existing enforcement 
priorities, those who are here undocumented who are convicted 
of felonies, convicted of serious misdemeanors, convicted of 
multiple misdemeanors, who are repeat reentrants, who are 
fugitives from a final immigration order are considered 
priorities for removal.
    That is where we devote our resources in the removal 
process. So, in general, what we say is those who represent 
threats to border security, national security, public safety.
    Now, there is a lot of devil in those details, obviously.
    Mr. Marino. Sure.
    Secretary Johnson. And you didn't exactly ask me this, but 
I think that there deserves to be greater clarity in how we 
define what our removal priorities should be.
    But I put them in several different buckets, including 
threats to border security, those who abuse the immigration 
enforcement system in some way.
    Mr. Marino. Here is the complex question that I get a great 
deal of the time when I am not only traveling in my district, 
but around the country concerning immigration.
    What do we do with the children that are born here in this 
country that their parent or parents are here illegally and 
their parent or parents have a serious criminal record?
    Secretary Johnson. That is a very good question.
    Mr. Marino. It is a conundrum. It really is.
    Do you have any insight on that at this point? And I know 
that you have only been in your position for several months.
    Secretary Johnson. I can't characterize every case. 
Hopefully, in that circumstance, there is a parent in this 
country who is in a position to care for his or her child.
    Mr. Marino. That does not have a serious criminal record?
    Secretary Johnson. That does not have a serious criminal 
record.
    Mr. Marino. I am going to switch gears here a little bit to 
Guantanamo Bay.
    You said that you think that we need to close that 
operation down, and you said we had some 130, -50----
    Secretary Johnson. I think at this point there are less 
than 160.
    Mr. Marino. Still detained there.
    Secretary Johnson. Yes.
    Mr. Marino. What do we do with those people?
    Secretary Johnson. Well, they should either be prosecuted 
in our military commissions system.
    Mr. Marino. That we agree on.
    Secretary Johnson. I was part of the reform effort in 
2009--we had at one point been in discussions with the State of 
Illinois about a facility in Thomson, Illinois--or they should 
be transferred back to their home countries, consistent with 
suitable security arrangements.
    But, you know, we are at a point where we are at the 
toughest cases. At one point, the population at Guantanamo was 
over 600, maybe close to 800. The easier cases have left. The 
harder cases are the ones that still remain.
    And so, obviously, we have got to deal with this population 
at some point or another in one way or another, which could 
include possible continued Lawbore detention, as long as that 
legal authority still exists, at some alternative location.
    But I believe that Guantanamo is a facility, for a variety 
of reasons, that should be closed at some point, including the 
cost to the taxpayer right now that it represents.
    Mr. Marino. Thank you.
    And I yield back.
    Mr. Goodlatte. Chair thanks the gentleman and recognizes 
the gentleman from Rhode Island, Mr. Cicilline, for 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here.
    I want to begin by saying that I think the suggestion that 
this Administration has not been properly enforcing the 
immigration law is almost laughable.
    The United States today under this Administration spends 
more on immigration than all other Federal law enforcement 
agencies combined. There have been record removals.
    This Administration has formally deported more people than 
any President in history. Record detentions. This 
Administration has detained more people than any President in 
history.
    A record of prosecutions. Immigration offenses have now 
become the most prosecuted crimes in the Federal courts. And 
our borders are more secure than ever. Over the last 5 years, 
border incursions have decreased to levels not seen since the 
1970's.
    So this notion that somehow we can't do comprehensive 
immigration reform because this Administration can't be trusted 
to enforce immigration law is totally belied by the facts, and 
I think that the American people know that.
    My first question really is the thing that concerns me 
tremendously is the large number of individuals who are being 
detained and deported each year who have committed no 
violation, other than those related to their undocumented 
status, people who have American citizen children, American 
citizen spouses, who have worked all the years that they have 
been here, and, frankly, people who would qualify for legal 
status under the bipartisan Senate-passed immigration bill and 
the House proposal H.R. 15.
    And I hope, Mr. Secretary, that, as you assess where you 
will put your priorities for prosecution, that you will take 
into account that those individuals--many of them are, in fact, 
likely to be permitted to pursue legal status and it would seem 
that those shouldn't be priorities in terms of the prosecution 
as you evaluate what the priorities of the Department are.
    And I would like to ask you now to move to a question about 
guns.
    As you know, according to the GAO, a number of individuals 
that are on are terror watch list have legally purchased 
firearms in the United States in recent years.
    And according to the most recent GAO study, individuals on 
the terror watch list tried to buy guns and explosives 1,453 
times between February 2004 and December 2010.
    On 1,321 occasions, 91 percent of those attempts, the FBI 
was not able to block gun and explosive sales to suspected 
terrorists.
    So my first question is: Do you support legislation that 
would ensure that the Federal Government has the ability to 
block gun sales to those on the terror watch list?
    And, secondly, some of my colleagues who have raised 
concerns about the accuracy of the terror watch list.
    And I would like to hear from you as to whether or not 
there are efforts underway to update that list as compared to 
maybe the status of it 5 or 10 years ago when there was some 
concern about who was on it.
    Secretary Johnson. Well, consistent with the position of 
this Administration, I support sensible gun control laws. I 
believe that part of our mission in the Department of Homeland 
Security is to train, prevent, educate, with regard to mass 
shootings.
    And we have done that, Secret Service, through our FEMA 
grants. We try to help communities better respond to mass 
shootings. And we obviously see far too many of these in this 
country.
    And so, irrespective of motive, when a tragedy occurs that 
involves multiple deaths, whether it is a terrorist-motivated 
bomb plot or a mass shooting, the Department is prepared to do 
what we can to try to prevent these acts, to minimize the 
fallout from these acts, to provide grants to communities to 
better prepare for these acts by way of first responders and so 
forth. And so we do what we can.
    Mr. Cicilline. But, Mr. Secretary, what I am asking about 
is specifically a GAO study that showed that, in 91 percent of 
the occasions, the Federal Government--or the FBI was not able 
to block a gun or explosive purchase by an individual on the 
terror watch list.
    My question is: Do you support legislation that would 
ensure that the Federal Government has the ability to block gun 
sales or explosives sales to individuals on the terror watch 
list?
    Secretary Johnson. I would have to study the GAO report 
more specifically before I took a position.
    Mr. Cicilline. Okay, well, I would ask you and I look 
forward to working with you on this.
    This is a very serious issue where individuals are placed 
on the terror watch list because they are dangerous and they 
have been identified as terrorists and they have the ability to 
go in and buy a gun or buy explosives. That is unimaginable to 
most Americans.
    And so I urge you to read that report and look forward to 
working with you to make sure that we prevent such individuals 
from having access to firearms.
    And, with that, I yield back, Mr. Chairman.
    Secretary Johnson. Thank you.
    Mr. Goodlatte. Chair thanks the gentleman and recognizes 
the gentleman from North Carolina, Mr. Coble, for 5 minutes.
    Mr. Coble. Thank you, Mr. Chairman.
    Mr. Secretary, good to have you on the Hill.
    Mr. Secretary, in responding to a post-hearing question for 
the record following your confirmation hearing, you were asked 
whether you had any concerns with the current interior 
enforcement policies and efforts at ICE, and you stated--and I 
quote, ``I have reached no conclusion at this point. But I 
anticipate that, if confirmed, I will become fully immersed in 
this issue.''
    Several months have passed since that time, Mr. Secretary. 
Do you have any concerns with the current interior enforcement 
policies and efforts at ICE?
    Secretary Johnson. Thank you for that question.
    I have immersed myself in this issue to the extent I am 
able to do so in 5 months, and I have spent a lot of time 
talking to our ERO workforce.
    One of the things that is apparent to me is our guidance 
for enforcement could use consolidation and added clarity. I am 
struck by the fact that our guidance exists in a whole series 
of written documents, memoranda, issued by ICE leadership 
dating back to 1976 all the way into 2012. It is a whole series 
of things.
    And so, if one wanted to fully understand what our removal 
priorities are, what our enforcement policies are, you would 
have to look at a whole series of documents. There is no one 
place you could go to do that, and in many places I think it 
lacks clarity.
    So I am interested in trying to build clarity and trying to 
consolidate all of this guidance, which would be a very huge 
project.
    I also think that our removal workforce has some morale 
issues. I think they could use a pay raise. A lot of them are 
capped at GS-9 and are upset about the fact that they can't go 
any higher.
    And I have talked to people in our workforce who are 
contemplating leaving ERO to go to a lower-paying job where 
they have greater pay opportunities, and I think that is 
unfortunate.
    So, I mean, those are just two issues that occur to me. But 
I continue to learn more and more about interior enforcement 
all the time. But these are two issues that strike me in 
response to your question.
    Mr. Coble. I thank you, Mr. Secretary.
    Mr. Secretary, George Washington University law professor, 
Professor Jonathan Turley, in fact, has appeared before our 
Committee several times. I am sure you know him----
    Secretary Johnson. I do.
    Mr. Coble [continuing]. By name and reputation.
    He told the House Judiciary Committee that, in abusing the 
concept of prosecutorial discretion--and I am quoting the 
professor now--``President Obama is nullifying part of the law 
that he simply disagrees with. It is difficult to discern any 
definition of the faithful execution of the laws that would 
include the blanket suspension or nullification of key 
provisions.'' ``If the President can claim sweeping discretion 
to suspend key Federal laws, the entire legislative process 
becomes little more than a pretense,'' he said.
    Do you agree with Professor Turley?
    Secretary Johnson. Without seeing his entire testimony, I 
am inclined to agree with the passage that you read.
    Mr. Coble. And so am I.
    Secretary Johnson. In terms of blanket exemption in the 
enforcement of the law, doesn't really look like an act of 
prosecutorial discretion.
    And this is similar to the exchange I had with Congressman 
Gowdy. I think that there is a line that can be drawn between 
prosecutorial discretion and simply a blanket inability or 
unwillingness to enforce the law in its entirely. I don't think 
that is prosecutorial discretion.
    Mr. Coble. Well, when I said I agreed, I agreed with the 
fact that it appears little more than a pretense. That is what 
I meant when I said that I agreed with the professor.
    I thank you for being here, sir.
    And I yield back, Mr. Chairman.
    Mr. Goodlatte. Chair thanks the gentleman and recognizes 
the gentleman from New York, Mr. Jeffries, for 5 minutes.
    Mr. Jeffries. Thank you, Mr. Chairman.
    And thank you, Secretary Johnson, for your presence here 
today and for your service to the country.
    And let me just state for the record I had the opportunity 
and the privilege to work under Mr. Johnson as a young attorney 
and am confident that the skill and ability that he has 
obviously has served the country well in his prior capacity and 
will continue to serve the country well as you move forward as 
our Homeland Security Secretary. So we are thankful--I am 
certainly thankful for that.
    I wanted to ask a few questions about immigration and 
whether our system is broken and, if so, you know, how we might 
resolve it, based on some of the things that you mentioned in 
your oral as well as in your written testimony.
    We have got about 11.4 million undocumented individuals in 
this country right now. Is that figure about correct?
    Secretary Johnson. Yes. That is what I understand the 
estimate to be. I have seen 11.5, 11.4. Somewhere in there.
    Mr. Jeffries. Now, what is the likelihood that these 
individuals in any significant number will self-deport?
    Secretary Johnson. I think the likelihood is next to zero 
that they will all self-deport. I think we have to be realistic 
about that situation. They are not going away.
    Mr. Jeffries. And what is the feasibility that we, as the 
United States Government, Homeland Security--any apparatus that 
we have available can engage in mass deportation of such a 
significant number?
    Secretary Johnson. With any realistic--I mean, it can't be 
done. We have to accept the fact that we have 11.5 million 
undocumented immigrants in this country. We have deal with 
them. I don't think we should allow them to continue to exist 
in a state of legal ambiguity or in a dark hole.
    I think, from my Homeland Security perspective, I would 
rather deal with this population, encourage them to be held 
accountable, encourage them to pay taxes, get on the books and 
get on an earned path to citizenship so that they go through 
the necessary background checks, they are in a position where 
they can work legally, and we reckon with this problem, which 
is why I am a strong supporter of immigration reform.
    I think that we have to be realistic about the place we are 
in with respect to these 11.5 million people. There are States 
now where they are permitted to have driver's licenses. The 
California Supreme Court says that an undocumented immigrant in 
this country can practice law.
    So they are not going away. They are not going to self-
deport. I would rather see us reckon with this population than 
to continue in the state of legal ambiguity we are in right 
now.
    Mr. Jeffries. Well, I certainly take that position. I think 
most reasonable people would conclude, obviously, based on the 
fact that self-deportation is impractical, unlikely to occur, 
and mass deportation is impractical in terms of any execution.
    And we have 11.4 million-plus undocumented individuals. We 
need to deal with them appropriately. But we need to address 
that situation. So I appreciate those observations.
    Now, you expressed concern earlier today and in your 
testimony that there has been a substantial increase in the 
number of unaccompanied minors who have been entering into this 
country.
    And it is my understanding that that phenomenon really 
began to occur sometime in the fall of 2011 and we have seen a 
significant increase in and around that moment.
    What are some of the factors, if any, that are leading to 
this substantial increase in those Central American countries 
that we have experienced?
    Secretary Johnson. I think that phenomenon is driven 
largely by the circumstances in those countries--in those 
Central American countries, the levels of violence, the levels 
of poverty.
    Because when you look at--when I see these children and ask 
at McAllen Station, ``Where are you from?'', they tell us 
Honduras, El Salvador, Guatemala. And you just look at the 
situation in those countries and you have a readily available 
answer to your question.
    And so I want to try to work with these governments to stem 
this tide and to see what we can do to add to their own border 
security and deal with some of the underlying problems that are 
causing this phenomenon. But I think the principal reason we 
are seeing this is because of what is happening in the source 
countries.
    Mr. Jeffries. Well, what can we do proactively to address 
not just the underlying violence, which seems to be a problem, 
you know, as it relates to some of the drug cartels potentially 
being pushed out of Mexico into Honduras, Guatemala, El 
Salvador, in a manner that those countries weren't prepared to 
address, creating a chaotic situation?
    But, also, there appears to be an absence of any meaningful 
child protective system in those countries and then the absence 
of border security.
    I mean, is there opportunity here for us through your 
leadership, through the leadership of others, for the United 
States, for Congress, to potentially get behind assisting our 
Central American countries to our southern border beyond Mexico 
in a manner that could alleviate what I think is a humanitarian 
crisis that we have to deal with for those who actually make 
it?
    Secretary Johnson. I think, first of all, it requires a 
whole-of-government approach by our government, executive 
branch and Congress, DHS and other agencies of our government.
    And this is something I have had conversations about with 
my cabinet counterparts, who all recognize and appreciate the 
problem. I think it requires a whole-of-government approach in 
homeland security, national security, and law enforcement.
    And I think it requires an engagement with the Government 
of Mexico because this problem is also their problem. People 
who migrate from Central America to the United States migrate 
through Mexico, and many of them stop there.
    And so I have had this conversation with the Government of 
Mexico about doing more. And I believe that there is a 
recognition of the problem in our partnership with that 
government, and I believe that there is a mood and a climate to 
address the problem.
    I have had that conversation with the senior-most members 
of the Mexican Government, and I think that they want to help. 
And I think the--my sense is that we are in a position right 
now to make some progress with the Mexican Government on that 
issue.
    Mr. Jeffries. Thank you.
    My time is up. I yield back.
    Mr. Goodlatte. The time of the gentleman has expired.
    And I want to say that I have had the same opportunity to 
speak with senior Mexican officials, who have said the same 
thing, which is a change in their attitude toward their souther 
border.
    And any assistance the U.S. gives to them to help secure 
that border with Guatemala I think will pay dividends for both 
Mexico and the United States. So I would certainly encourage 
it.
    The Chair recognizes the gentleman from Georgia, Mr. 
Collins, for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman.
    Mr. Secretary, I wasn't going here. But I have sat here and 
listened. I have some other questions I am going to get to.
    But we just spoke of--and my good friend from New York 
brought this up--that there are 11.4, 11.5. I think there are 
some who think it is higher or lower. It doesn't really matter.
    But these 11.4 million are--and we will use the word 
``undocumented''--they are not here in a lawful status. 
Correct?
    Secretary Johnson. For the most part, that is correct.
    Mr. Collins. No. No.
    Are they here in a lawful status or not?
    Secretary Johnson. For the most part, that is correct. I 
mean, some of them----
    Mr. Collins. No. No. No.
    Reclaiming my time, you can't have it both ways. If they 
are here in a legal status, then, they are not undocumented. 
They are here legally if they have some form of legal status.
    When you say--and I think this is the problem of a 
political agenda or a want-to or a feeling. It is not legal 
ambiguity if you are here and we talk about a group of people 
that are undocumented and not here properly. That is not a 
legal ambiguity.
    So it concerns me that we take this conversation--and, like 
I said, you have answered a lot of questions on both sides very 
concerned about that we can't define a secure border. That is a 
different issue. I will be submitting questions to you, for the 
record, on that.
    But we would not be having this discussion in a large sense 
if these 11-point-whatever million were here and there was a 
legal ambiguity on their status here.
    There is no legal ambiguity. One side wants to do it 
differently. There is another side, which we have taken steps 
in this Committee to work toward resolving this issue.
    So I want to go to something else, but I just don't think 
it is being very honest with the Committee to say that there is 
legal ambiguity here. If there were, this would be a whole 
different discussion.
    Secretary Johnson. Sir, there is----
    Mr. Collins. But I do have a question.
    Secretary Johnson. There is legal ambiguity in that they 
are here undocumented, but there are States that permit them to 
have driver's licenses. I consider that an ambiguous legal 
state, and we have to fix it. The system is broken.
    We are not going to deport 11.5 million undocumented 
immigrants in this country. You and I both know that. We have 
to deal with these populations----
    Mr. Collins. And have you heard----
    Secretary Johnson [continuing]. One way or another.
    Mr. Collins. Reclaiming my time, have you heard me say 
that? Have you heard me say that?
    Secretary Johnson. We have to deal with the problem.
    Mr. Collins. Have you heard me say that I would deport 11.4 
million people?
    Secretary Johnson. But We have to recognize----
    Mr. Collins. Have you heard me----
    Secretary Johnson [continuing]. They are not going away.
    Mr. Collins [continuing]. Mr. Secretary--Mr. Secretary, I 
am not asking you to give a roundabout answer.
    Have you heard Congressman Doug Collins say that we need to 
deport 11.4 million people?
    Secretary Johnson. No, I have not.
    Mr. Collins. Yes or no.
    Secretary Johnson. No, I have not.
    Mr. Collins. I want to move on to something else because we 
are obviously not going to see eye to eye on this point. 
Because I do believe there needs to be a fix. But if we can't 
even agree on the fact that there is not legal ambiguity here, 
there is a problem.
    One of the things I do think we are making progress on is 
in the effort on border protection and, also, homeland security 
in dealing with IP issues and intellectual property issues 
coming across the border and patent-infringing goods making 
entry into the U.S.
    This is something that is--the intellectual property aspect 
is very important to me and, also, to my State of Georgia.
    Could you provide me with a brief update on the Border 
Patrol's efforts to develop processes which we can expect over 
the months to work on this issue of patent-infringing products 
coming across the border and areas that this is being 
discussed?
    Secretary Johnson. I am happy to have that discussion and 
engage in a conversation with you or any other Member about 
border security.
    Mr. Collins. Okay. I just asked the question.
    The question is: Can you brief me on the updates of Border 
Patrol in dealing with patent-infringing products, other things 
dealing with the IP, intellectual property issues coming across 
our border? Just update me or give me an update if you can. If 
not, can you supply it in writing on issues that are going on?
    Secretary Johnson. Yes, I can--I will. Yes.
    Mr. Collins. Supply it in writing? Okay.
    In February of this year, Director Kubiak testified on 
behalf of DHS in front of the House Energy and Commerce 
Subcommittee.
    He stated in his written testimony that ICE is working 
closely with Border Patrol to adopt best practices to ensure 
their limited resources are focused on finding the most 
egregious violators as it relates to IP theft.
    Is this correct?
    Secretary Johnson. I believe so. Yes.
    Mr. Collins. Could you share what some of the best 
practices are that are being adopted?
    Secretary Johnson. I can do that in writing. Sure.
    Mr. Collins. Okay. In looking further, I have also been 
concerned--and I will just sort of come back and just sort of 
finish up here--I have been concerned with the releases and the 
detentions. And we have discussed this. That has been discussed 
ad nauseum as far as the policy.
    But I do have a question: Are you willing to provide me 
with identifying information regarding any criminal alien 
released in Georgia since 2012 so I can provide appropriate 
congressional oversight on behalf of the citizens of my 
district?
    Secretary Johnson. I believe we are in a position to do 
that, and I will do that. Yes, sir.
    Mr. Collins. Okay. You will provide that.
    Again, Mr. Secretary, I do appreciate your work. I am very 
concerned with the answers especially to the first part of our 
discussion because some of these things are not legal 
ambiguities. They are things that need to be fixed. If they 
were not, then we would not be looking at it from the 
perspective we are. And that is why there is such conversation 
on this.
    With that, Mr. Chairman----
    Mr. Goodlatte. Would will the gentleman yield?
    Mr. Collins. It is yours, Mr. Chairman.
    Mr. Goodlatte. I would just add to your concern that the 
REAL ID Act, which deals with making sure that driver's 
licenses or other forms of identification help prevent the kind 
of tragedy that occurred on 9/11/2001--that act makes it very 
clear that a State conferring a driver's license on someone who 
is not lawfully present in the United States does not in any 
way confer a legal status on that individual whose presence is 
here.
    Mr. Collins. Mr. Chairman, you are correct in that, and 
that is why there is still not legal ambiguity here. There is a 
problem with a law that provides something else.
    Ms. Lofgren. Will the gentleman yield?
    Mr. Collins. It is the Chairman's time.
    Mr. Goodlatte. I will yield an additional minute to the 
gentleman from Georgia so he can yield to the gentlelady.
    Mr. Collins. I yield to the gentlelady from California.
    Ms. Lofgren. I think that--and I appreciate the gentleman 
for yielding--that there are certainly instances--and I am sure 
Mr. Labrador has also run into this in his practice--where 
someone doesn't have documents, but they are, in fact, legally 
present in the United States. It is not all that rare, 
surprisingly enough. I would just add that into the mix.
    Mr. Collins. And reclaiming my time--and I do agree with 
the gentlelady, who we agree on many different things--I think, 
in this instance, though-- when you discuss 11.4 million, the 
implication was they are all here under legal ambiguity, and 
that is not the case.
    Ms. Lofgren. I am not suggesting that that is the case.
    Mr. Collins. It muddies the water greatly on what we are 
doing here.
    Mr. Chairman, I yield back.
    Mr. Goodlatte. Chair thanks the gentleman and recognizes 
the very patient gentleman from Idaho, Mr. Labrador, for his 
questions.
    Mr. Labrador. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here with us today. I 
want to start out with something good because we are going to 
get to some issues that we are going to disagree on.
    But I actually really admire your answers to Mr. Deutch. I 
don't know if you remember the exchange that you had just a few 
minutes ago--or about an hour ago about the number of beds. I 
want to make sure that your answer is really clear.
    There is nothing in the law that is mandating you to put 
34,000 people on these beds. Is that correct?
    Secretary Johnson. I do not read the law that way. It 
doesn't read that way.
    Mr. Labrador. It doesn't read that way. And I keep hearing 
that----
    Secretary Johnson. It says ``beds,'' not ``people.''
    Mr. Labrador. That is the way I read it as well. And I 
commend you for your answer. I was actually a little bit 
confused, thinking that maybe that was the interpretation of 
the Administration. And I appreciate that you clarified that. I 
don't read the law that way either.
    Now, I do believe that a critical part of immigration 
reform is a robust ag and non-ag guest worker program. Do you 
agree that such a program is important?
    Secretary Johnson. Yes.
    Mr. Labrador. I think that the evidence, at least in my 
mind, is pretty clear that a guest worker program can end 
illegal immigration. For example, the Bracero program did it in 
the 1960's, in my opinion.
    The Congressional Research Service found that the Bracero 
program only worked when combined with greatly increased law 
enforcement efforts.
    So here is the problem. Employers in my district are 
telling me that legal workers, people who are actually coming 
to the United States legally, are absconding to work in the 
black market and they are being told that they won't be removed 
from the United States by ICE agents or others.
    Do you agree that ICE's priorities are maybe undermining 
one of our legal programs that is actually meant to deter 
illegal immigration?
    Secretary Johnson. That sounds like a problem. Yes.
    Mr. Labrador. We are hearing again and again in our 
district that people are leaving, for example, the sheep 
herding program and moving on to other industries and that the 
ICE agents don't have the resources--or are being told not to 
pick up these people, and I am very concerned about that.
    Now, your testimony also indicated that there is no way 
that illegal aliens will depart. In fact, you just stated a few 
minutes ago that the likelihood is nearly zero.
    And let me tell you that I disagree with you vehemently. In 
fact, my experience is totally different. So my actual 
experience as an immigration lawyer has been totally different 
than what your testimony is today.
    In my experience, many did leave prior to the bars banning 
illegal aliens from returning for a decade or more. You are 
obviously familiar with the 3- and 10-year bars and the 
permanent bars. Is that correct, Mr. Secretary?
    Secretary Johnson. Familiar with what? I am sorry.
    Mr. Labrador. Are you familiar with the bars that are in 
the law right now where, if you are here illegally in the 
United States, you must return to your home country before you 
can return to the United States legally?
    Secretary Johnson. Yes. Yes.
    To be clear, what I said--Congressman Jeffries asked me 
what is the likelihood that those 11.5 million people will all 
self-deport, and I said the likelihood of that happening with 
regard to 11.5 million people is near zero.
    Mr. Labrador. That is what I want to clarify.
    Secretary Johnson. Do people self-deport? Yes.
    Mr. Labrador. And people will do it----
    Secretary Johnson. Individually self-deport. Yes.
    Mr. Labrador [continuing]. If we have the incentives in the 
law.
    Do you agree with that?
    Secretary Johnson. I agree that there should be 
disincentives to engage in illegal migration.
    Mr. Labrador. Correct.
    So if, for example, we remove the 3- and 10-year bars, if 
we repeal those bars that are in the law, don't you think many 
people would depart and, in essence, self-deport so they can 
reapply legally to the United States?
    Secretary Johnson. I do not have any empirical evidence one 
way or another to be able to answer that question.
    Mr. Labrador. Well, you should look into that. Because I 
actually did that with many of my clients when I was an 
immigration lawyer.
    And even when the bars were in place, if there was a high 
likelihood that they could return even in spite of the bars, 
they would actually go back to their home country and return to 
the United States.
    Don't you think it would be positive if we actually----
    Secretary Johnson. Intuition says, if there is a shorter 
period of time that you have to go back and then wait, you are 
more likely to go back. Intuition says that.
    Mr. Labrador. So right now the waiting period is 3 to 10 
years. Well, actually, if we removed those bars and they know 
that they can return legally--for example, a U.S. citizen 
spouse knows that they can go back to their home country and 
they can return legally within a matter of months instead of 3 
to 10 years--don't you think they would probably more likely be 
willing to do that?
    Secretary Johnson. Intuition says that, if the wait period 
is shorter--people are more likely to go back if the wait 
period is shorter.
    Mr. Labrador. So don't you think that would be a good first 
step for us to actually start with something like that, where 
we could actually make a small change in the law and encourage 
a lot of people?
    In my estimation and others, it is about 25 percent of the 
people that are here illegally who currently qualify for some 
legal status but for the bars.
    Don't you think that would be a good first step for us to 
try?
    Secretary Johnson. Well, it is hard to comment on that 
proposal in isolation to the exclusion of everything else that 
is in the works in comprehensive immigration reform.
    Mr. Labrador. So you would rather have nothing than at 
least have one area where we can fix the status of people that 
are here illegally by having them go back to their home country 
and return in a legal status?
    Secretary Johnson. There are many things about our 
immigration system that needs to be fixed that I hope this 
Congress will act on.
    Mr. Labrador. And you don't want to fix one of them? You 
want an all-or-nothing approach?
    Secretary Johnson. I think that we have an opportunity on a 
comprehensive basis, either in one bill or several bills, to 
fix a whole multitude of problems that I think every Member of 
this Committee realizes exists.
    Mr. Labrador. So your answer is, if we don't do it 
comprehensively, then we should fix nothing about the current 
system?
    Secretary Johnson. I won't be categorical in that way. I am 
saying that I would encourage the Congress to think about 
immigration reform in a whole variety of areas.
    Mr. Labrador. We can do that, and I agree with you.
    But if we can fix something today, if tomorrow we could get 
something passed that gets rid of the bars so we can help a 
group of people that are here illegally return legally after 
they return to their home country, you would be opposed to 
that?
    Secretary Johnson. Sir, I would encourage you to think 
about the whole range of----
    Mr. Labrador. So you don't want to answer that question? 
Again, your answer is you want all or nothing? That is what you 
are saying?
    Secretary Johnson. No. I didn't say that. I am encouraging 
the Congress to think about a comprehensive solution to this 
problem.
    Ms. Lofgren. Will the gentleman yield? If I may.
    Mr. Goodlatte. The gentlewoman will suspend. The 
gentleman's time has expired, but the Chair would recognize the 
gentleman for an additional minute so he can yield to the 
gentlewoman.
    Ms. Lofgren. I just note that, really, it is up to the 
Congress to decide what to legislate and the Secretary doesn't 
get to decide.
    Mr. Labrador. And I yield back--and I reclaim my time. And 
I agree with that.
    But the position of this Administration, as has been 
demonstrated by the Secretary and as has been demonstrated by a 
lot of the comments that have been made by the other side and 
by the President, is that they want an all-or-nothing approach.
    And I think that is rather unfortunate because we could 
actually fix----
    Ms. Lofgren. I don't think that is what the Secretary said.
    Mr. Labrador. We could actually fix----
    Secretary Johnson. For the record, I have not said that. 
Let me make myself clear.
    Mr. Labrador. But you won't answer the question.
    Secretary Johnson. I have not said that.
    Mr. Labrador. You won't answer the question if it would be 
okay for us to actually fix one portion of the immigration 
system that I think is actually preventing people from 
returning to their home country and coming back legally.
    Ms. Lofgren. If would gentleman would further yield, I 
would encourage him to bring that and many other items up to 
the floor for a vote.
    Mr. Labrador. We will.
    Mr. Goodlatte. The Chair thanks the gentleman.
    And the Chair especially thanks the Secretary. You have 
been very generous with your time. And I believe, by my count, 
you have taken questions from 32 of the 39 Members of this 
Committee.
    And we know that there were some questions asked that you 
were not prepared to answer and want to do some research on.
    And if you would respond to those questions in writing as 
well as to any other questions that Members of the Committee 
may propound to you in writing, we would very much welcome 
that.
    I also want to take note of one other issue that was raised 
by the gentleman from Georgia and the gentlewoman from 
California and thank you for this, and that is with regard to 
the REAL ID.
    As you know, the REAL ID Act allows States to issue 
driver's licenses to illegal immigrants as long as the licenses 
are REAL ID-compliant, something, by the way, that I am not in 
favor of having States issue licenses to people who are not 
lawfully here.
    But be that as it may, REAL ID-compliant means that they 
clearly note that the driver's license cannot be used for 
Federal purposes and that they have markings that clearly make 
it different from regular driver's licenses.
    At the beginning of May, your Department rejected 
California's illegal immigrant license design pursuant to the 
REAL ID, and I thank you for that. I think it was the 
absolutely correct decision.
    That decision was made because it did not have markings 
that made it clearly different from normal licenses. That was a 
great decision. And I want you to know that there are a number 
of Members of Congress who support that decision and thank you 
for having made it.
    Secretary Johnson. Doing my best to comply with the law, 
Congressman.
    Mr. Goodlatte. Thank you, Mr. Secretary.
    This concludes today's hearing.
    We thank the Secretary for joining us.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions for the witness or 
additional materials for the record.
    And, with that, the hearing is adjourned.
    [Whereupon, at 3:03 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Questions for the Record submitted to the Honorable Jeh C. Johnson, 
       Secretary, United States Department of Homeland Security*
---------------------------------------------------------------------------
    *The Committee had not received a response to these questions at 
the time this hearing record was finalized and submitted for printing 
on August 14, 2014.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
